<html>
<title> - HOW DATA CAN BE USED TO INFORM EDUCATIONAL OUTCOMES</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
          HOW DATA CAN BE USED TO INFORM EDUCATIONAL OUTCOMES

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, APRIL 14, 2010

                               __________

                           Serial No. 111-54

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html



                  U.S. GOVERNMENT PRINTING OFFICE
55-849                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       John Kline, Minnesota,
    Chairman                           Senior Republican Member
Donald M. Payne, New Jersey          Thomas E. Petri, Wisconsin
Robert E. Andrews, New Jersey        Howard P. ``Buck'' McKeon, 
Robert C. ``Bobby'' Scott, Virginia      California
Lynn C. Woolsey, California          Peter Hoekstra, Michigan
Ruben Hinojosa, Texas                Michael N. Castle, Delaware
Carolyn McCarthy, New York           Mark E. Souder, Indiana
John F. Tierney, Massachusetts       Vernon J. Ehlers, Michigan
Dennis J. Kucinich, Ohio             Judy Biggert, Illinois
David Wu, Oregon                     Todd Russell Platts, Pennsylvania
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Tom Price, Georgia
Timothy H. Bishop, New York          Rob Bishop, Utah
Joe Sestak, Pennsylvania             Brett Guthrie, Kentucky
David Loebsack, Iowa                 Bill Cassidy, Louisiana
Mazie Hirono, Hawaii                 Tom McClintock, California
Jason Altmire, Pennsylvania          Duncan Hunter, California
Phil Hare, Illinois                  David P. Roe, Tennessee
Yvette D. Clarke, New York           Glenn Thompson, Pennsylvania
Joe Courtney, Connecticut
Carol Shea-Porter, New Hampshire
Marcia L. Fudge, Ohio
Jared Polis, Colorado
Paul Tonko, New York
Pedro R. Pierluisi, Puerto Rico
Gregorio Kilili Camacho Sablan,
    Northern Mariana Islands
Dina Titus, Nevada
Judy Chu, California

                     Mark Zuckerman, Staff Director
                 Barrett Karr, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on April 14, 2010...................................     1

Statement of Members:
    Kline, Hon. John, Senior Republican Member, Committee on 
      Education and Labor........................................     4
        Prepared statement of....................................     6
        Study, ``Children's Educational Records and Privacy,'' 
          dated October 28, 2009, Internet address to............     5
    Miller, Hon. George, Chairman, Committee on Education and 
      Labor......................................................     1
        Prepared statement of....................................     3
        Questions for the record submitted to Mr. Wenning, on 
          behalf of Mr. Kucinich.................................    74

Statement of Witnesses:
    Hartley, Katie, teacher, value added data specialist, Miami 
      East Local Schools, Miami County, OH.......................    28
        Prepared statement of....................................    31
    Kitchens, Joe, superintendent, Western Heights School 
      District, Oklahoma City, OK................................    24
        Prepared statement of....................................    26
    Reidenberg, Joel R., professor of law and founding academic 
      director, Center on Law and Information Policy, Fordham 
      University School of Law...................................    32
        Prepared statement of....................................    36
    Wenning, Richard J., associate commissioner, Colorado 
      Department of Education....................................     9
        Prepared statement of....................................    11
        Responses to Mr. Kucinich's questions for the record.....    75


                        HOW DATA CAN BE USED TO
                      INFORM EDUCATIONAL OUTCOMES

                              ----------                              


                       Wednesday, April 14, 2010

                     U.S. House of Representatives

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 10:01 a.m., in room 
2175, Rayburn House Office Building, Hon. George Miller 
[chairman of the committee] presiding.
    Present: Representatives Miller, Payne, Scott, Woolsey, 
Hinojosa, McCarthy, Tierney, Kucinich, Wu, Holt, Davis, Hirono, 
Altmire, Hare, Shea-Porter, Polis, Sablan, Titus, Chu, Kline, 
Petri, Biggert, McMorris Rodgers, Guthrie, Cassidy, Roe, and 
Thompson.
    Staff present: Andra Belknap, Press Assistant; Calla Brown, 
Staff Assistant, Education; Jody Calemine, General Counsel; 
Jamie Fasteau, Senior Education Policy Advisor; Denise Forte, 
Director of Education Policy; David Hartzler, Systems 
Administrator; Fred Jones, Staff Assistant, Education; Kara 
Marchione, Education Policy Advisor; Sadie Marshall, Chief 
Clerk; Bryce McKibbon, Staff Assistant; Charmaine Mercer, 
Senior Education Policy Advisor; Alex Nock, Deputy Staff 
Director; Lillian Pace, Policy Advisor, Subcommittee on Early 
Childhood, Elementary and Secondary Education; Rachel Racusen, 
Communications Director; Meredith Regine, Junior Legislative 
Associate, Labor; Alexandria Ruiz, Staff Assistant; Melissa 
Salmanowitz, Press Secretary; Mark Zuckerman, Staff Director; 
Stephanie Arras, Legislative Assistant; James Bergeron, Deputy 
Director of Education and Human Services Policy; Kirk Boyle, 
General Counsel; Casey Buboltz, Coalitions and Member Services 
Coordinator; Barrett Karr, Staff Director; Alexa Marrero, 
Communications Director; Brian Newell, Press Secretary; Susan 
Ross, Director of Education and Human Resources Policy; Mandy 
Schaumburg, Education Policy Counsel; and Linda Stevens, Chief 
Clerk/Assistant to the General Counsel.
    Chairman Miller [presiding]. A quorum being present, the 
committee will come to order.
    Good morning. Welcome to our witnesses and our members 
joining us here. Today we will explore how effective data 
systems can help improve educational outcomes. This is a part 
of a series of hearings this committee is holding as we work in 
a bipartisan way to reauthorize the Elementary and Secondary 
Education Act.
    My colleagues have demonstrated their dedication to this 
bipartisan reauthorization process and all bring valuable 
expertise to the table.
    Mr. Holt and Mrs. McCarthy particularly have been leaders 
in the data arena for several years. Notably, together they 
have previously introduced legislation to improve data use in 
schools across the nation.
    Data is absolutely critical to education reform. Just like 
a successful company relies on sales reports to measure their 
success, schools need data to make informed and educated 
decisions about what is working and what isn't.
    In many schools and districts, data is not used in the most 
meaningful way to make decisions, or even at all. It is 
unacceptable that education is only--the major enterprise in 
this country, on the whole, that doesn't use data to make 
decisions.
    Teachers, parents, and school administrators and states 
need access to real-time information to know exactly how 
students are faring in school. We took a big step forward to 
address this need in the American Recovery and Reinvestment Act 
when we required states to comply with the four assurances in 
order to be eligible for the historic investment in education.
    These assurances helped move the ball a little farther down 
the field for schools that are asking states to adopt college-
and career-ready standards tied to better assessments, to turn 
around the lowest performing schools, and to ensure teacher 
talent that is distributed fairly and to establish data systems 
that use the data to improve schools.
    We asked for these commitments from states, especially on 
the data front, for two reasons. One, we can no longer accept 
an education system that is willing to settle for less than the 
best of all of our students.
    The millions of students in classrooms today are our future 
innovators and engineers. If we are going to regain our footing 
as a global competitor in the world, we need to demand the best 
of our students, our teachers and our schools.
    And two, we need an effective longitudinal data system with 
focus on safety and privacy for our students that works to help 
schools succeed.
    Schools need student-level information in order to better 
educate every child, both for their own benefit and for our 
future as a nation. In Western Heights school district in 
Oklahoma, for example, school officials use data systems to 
help determine which students are--were the lowest performing.
    They realized that their mobile students, those who moved 
from school to school, were achieving at the lowest levels, and 
dropping out at the highest. After implementing the data 
system, the dropout rate in the district fell by 11 points in 2 
years.
    If districts implemented early warning indicator systems in 
middle schools, they could identify the students most likely to 
drop out of high school and reach those students before they 
get off track.
    If a principal uses data to help identify teachers' 
strengths in the classroom, the principal could work to 
replicate those achievements on a school-wide level.
    If researchers were able to investigate state-level data, 
they could share the practices that are working best to help 
students succeed.
    Without data, schools are operating in the dark. Simply 
put, data systems work. That is why there has been a tremendous 
focus on data, in the next iteration of the Elementary and 
Secondary Education Act, the new law can be a real catalyst for 
positive change in our schools.
    Since we announced we were working to rewrite ESEA, we have 
heard from thousands of stakeholders. Their input has been 
incredibly helpful. We all agree that the status quo is failing 
our children and won't lead our children to the future.
    It is time we put the needs of our students and teachers at 
the top of our priorities. We can't let our students suffer the 
failures of a system that doesn't support them. We have an 
obligation to the children of this country to get it right the 
first time. That is why the data is so absolutely critical.
    It is time to give teachers the tools they need to make 
data-based, informed decisions in the classroom. Critics of the 
use of data are operating under an antiquated school of 
thought. We have to take our schools to the future.
    When data is properly presented and where people are given 
skills to use it and know the purpose behind it, data can be a 
most valuable tool to school success.
    I want to thank in advance our witnesses for being here 
today and for their testimony that they will give in a moment.
    At this time I would like to recognize Congressman Kline, 
the senior Republican on the committee.
    [The statement of Mr. Miller follows:]

   Prepared Statement of Hon. George Miller, Chairman, Committee on 
                          Education and Labor

    Good morning.
    Today we'll explore how effective data systems can help improve 
education outcomes.
    This is a part of a series of hearings this committee is holding as 
we work in a bipartisan way to reauthorize the Elementary and Secondary 
Education Act.
    My colleagues have demonstrated their dedication to this bipartisan 
reauthorization process and all bring valuable expertise to the table.
    Mr. Holt and Mrs. McCarthy in particular have been leaders in the 
data arena for several years. Notably, together they have previously 
introduced legislation to improve data use in schools across the 
nation.
    Data is absolutely critical to education reform.
    Just like any complex organization relies on multiple indicators to 
measure their success, schools need data to make informed and educated 
decisions about what is working and what isn't.
    But in many schools and districts, data is not used in the most 
meaningful way to make decisions, or even at all.
    It is unacceptable that education is the only major enterprise in 
this country that, on the whole, doesn't use data as to make decisions.
    Teachers, parents, school administrators and states need access to 
real time data to know exactly how students are faring in school.
    We took a big step forward to address this need in the American 
Recovery and Reinvestment Act when we required states to comply with 
four assurances in order to be eligible for the historic investments in 
education.
    These assurances helped move the ball a little farther down the 
field for schools by asking states to adopt college and career ready 
standards tied to better assessments, turn around the lowest perform 
schools, ensure teacher talent is distributed fairly and establish data 
systems to use data to improve schools.
    We asked for these commitments from states, especially on the data 
front, for two reasons.
    One, we can no longer accept an education system that is willing to 
settle for less than the best for our students.
    The millions of students in classrooms today are the future 
innovators and engineers.
    If we are going to regain our footing as a global competitor in the 
world, we have to demand the best for our schools, our teachers and our 
schools.
    And two, we know an effective longitudinal data system with a focus 
on the safety and privacy of our students works to help schools 
succeed.
    Schools need student level information in order to better educate 
every child--both for their own benefit and for our future as a nation.
    In the Western Heights school district in Oklahoma, for example, 
school officials used a data system to help determine which students 
were the lowest performing.
    They realized their mobile students, those who moved from school to 
school, were achieving at the lowest levels and dropping out at the 
highest.
    After implementing a data system, the dropout rate in the district 
fell by 11 points in two years.
    If districts implement early warning indicator systems in middle 
schools, they could identify the students most likely to drop out of 
high school and reach those students before they get off track.
    If a principal uses data to help identify teachers' strengths in 
the classroom, the principal could work to replicate their achievements 
on a school wide level.
    If researchers were able to investigate state-level data, they 
could share the practices that are working best to help students 
succeed.
    Without data, schools are operating in the dark. Simply put, data 
systems work.
    That's why there has to be a tremendous focus on data in the next 
iteration of the Elementary and Secondary Education Act, so the new law 
can be a real catalyst for positive change in our schools.
    Since we announced we were working to rewrite ESEA, we've heard 
from thousands of stakeholders. Their input has been incredibly 
helpful.
    We all agree that the status quo is failing our children and won't 
lead our children to the future.
    It's time we put the needs of our students and teachers at the top 
of our priorities.
    We can't let our students suffer the failures of a system that 
doesn't support them.
    We have an obligation to the children of this country to get it 
right the first time.
    This is why data is so absolutely critical.
    It's time we give teachers the tools they need to make data-based, 
informed decisions in the classrooms.
    Critics of the use of data are operating under an antiquated school 
of thought. We have to take our schools to the future.
    When data is properly presented and when people are given skills to 
use it and know the purpose behind it, data can be the most valuable 
tool for school success.
    I'd like to thank our witnesses for being here today. I look 
forward to hearing your testimony.
                                 ______
                                 
    Mr. Kline. Thank you, Mr. Chairman.
    Good morning to the witnesses and to all present. We are 
here this morning to examine how data can be used to inform 
educational outcomes. To be sure, educational data systems play 
an integral role in efforts to create more sophisticated 
academic performance measures. In other words, data help us 
understand how our students and their teachers are performing.
    Yet no conversation about educational data systems would be 
complete without a discussion of student privacy. Technological 
advances and research opportunities have created a thirst for 
individualized student data like never before. Our commitment 
to privacy and data protection must intensify at the same pace.
    Unfortunately, the research indicates not nearly enough is 
being done to safeguard our students' records. We will hear 
this morning from Professor Joel Reidenberg of the Center on 
Law and Information Policy at Fordham Law School--welcome, 
Professor--who has been at the forefront in examining the 
privacy implications of longitudinal data systems.
    These massive state-controlled databases collect personally 
identifiable information about schoolchildren, information 
designed to be interoperable among a variety of data systems, 
leaving open the possibility that this data could be mined for 
uses far beyond its intended purposes.
    And, Mr. Chairman, I request unanimous consent to include 
Professor Reidenberg's report from October 2009.
    Chairman Miller. Without objection, it will be made part of 
the record of the hearing.
    [The study, ``Children's Educational Records and Privacy,'' 
dated October 28, 2009, may be accessed at the following 
Internet address:]

 http://law.fordham.edu/assets/CLIP/CLIP--Report--Childrens--Privacy--
                               Final.pdf

                                 ______
                                 
    Mr. Kline. Thank you.
    Professor Reidenberg will discuss his findings in detail, 
but there are two areas of concern I would like to highlight. 
First, the Fordham study found privacy protections lacking in 
most states. In some cases, states are not even complying with 
the federal educational rights and privacy act.
    Second, the study highlighted the risk that individual 
state data systems could be sewn together to create a de facto 
national database, a massive federal collection of individuals 
student information that could include not just academic 
histories but sensitive personal data, including Social 
Security numbers, demographic and financial characteristics, 
discipline records and health or behavioral information.
    The study describes it this way ``Common data standards by 
definition facilitate the combination of multiple data sets 
into one national data warehouse of K-12 children, which in 
turn could be combined with data from post-secondary data 
systems to create an unprecedented national database of 
personal information.''
    The prospect of these data systems being used for more than 
academic tracking in grade school is hardly far-fetched. In 
fact, the American Recovery and Reinvestment Act, the stimulus 
bill, which we now know contained a host of provisions having 
nothing to do with job creation, included an additional $250 
million for the existing state longitudinal data systems.
    According to the U.S. Department of Education, the long-
term goal of the program is to enable all states to create 
comprehensive P-20 systems which will track students from 
almost literally the cradle to their careers.
    The emphasis on interoperability makes clear these systems 
are intended to link personal and academic information from 
elementary and secondary school to workforce data systems that 
attract--that track adults later in life. These vast 
collections of information could significantly undermine 
individual privacy, particularly if they are compromised 
through ineffective security measures.
    In this era of technology and vast Web-based information 
archives, data that becomes public can never again truly be 
kept private. The potential privacy cost of these data systems, 
particularly if they do not maintain proper safeguards, cannot 
be ignored.
    Yet we must also consider the monetary costs associated 
with significant new data collection requirements. States and 
local school districts take on significant financial and 
personnel burdens to comply with data collection requirements.
    At a time when local schools are seeking less red tape and 
fewer federal requirements, we must carefully weigh the 
potential benefits with these costs. The stimulus significantly 
expanded the scope of federal involvement in student data 
collection, the consequences of which are only just beginning 
to emerge.
    I remain deeply concerned about student privacy both under 
current programs and in light of proposed expansions in data 
collection and use through reauthorization of the Elementary 
and Secondary Education Act.
    I shared a number of these concerns in a letter to 
Secretary Duncan in February of this year, and I am eager to 
continue a dialogue about how individual privacy protection 
will be maintained and strengthened.
    As I said at the outset, data systems are an important 
component of our efforts to measure and improve student 
academic achievement and teacher quality. Yet as technology 
advances, we must ensure the data collected is narrow in scope 
and tightly controlled with its use carefully monitored.
    The more data collected, the greater the risk of exposure, 
which is why every effort must be made to bring privacy laws 
into the 21st century to protect the student information.
    Thank you, Mr. Chairman. I yield back.
    [The statement of Mr. Kline follows:]

   Prepared Statement of Hon. John Kline, Senior Republican Member, 
                    Committee on Education and Labor

    Thank you Chairman Miller. We're here this morning to examine how 
data can be used to inform educational outcomes. To be sure, 
educational data systems play an integral role in efforts to create 
more sophisticated academic performance measures. In other words, data 
help us understand how our students--and their teachers--are 
performing.
    Yet no conversation about educational data systems would be 
complete without a discussion of student privacy. Technological 
advances and research opportunities have created a thirst for 
individualized student data like never before. Our commitment to 
privacy and data protection must intensify at the same pace.
    Unfortunately, the research indicates not nearly enough is being 
done to safeguard our students' records. We'll hear this morning from 
Professor Joel Reidenberg (RIDE-en-berg) of the Center on Law and 
Information Policy at Fordham Law School, who has been at the forefront 
in examining the privacy implications of longitudinal data systems. 
These massive, state-controlled databases collect personally 
identifiable information about school children--information designed to 
be interoperable among a variety of data systems, leaving open the 
possibility that this data could be mined for uses far beyond its 
intended purposes.
    Mr. Chairman, I request unanimous consent to include Professor 
Reidenberg's October 2009 report--entitled ``Children's Educational 
Records and Privacy: A Study of Elementary and Secondary School 
Reporting Systems''--in the printed hearing record.
    Professor Reidenberg will discuss his findings in detail, but there 
are two areas of concern I'd like to highlight. First, the Fordham 
study found privacy protections lacking in most states--in some cases, 
states are not even complying with the Federal Educational Rights and 
Privacy Act.
    Second, the study highlighted the risk that individual state data 
systems could be sewn together to create a de facto national database--
a massive federal collection of individual student information that 
could include not just academic histories but sensitive personal data 
including social security numbers, demographic and financial 
characteristics, discipline records, and health or behavioral 
information. The study describes it this way: ``Common data standards, 
by definition, facilitate the combination of multiple data sets into 
one national data warehouse of K-12 children, which in turn could be 
combined with data from post-secondary data systems to create an 
unprecedented national database of personal information.''
    The prospect of these data systems being used for more than 
academic tracking in grade school is hardly far-fetched. In fact, the 
American Recovery and Reinvestment Act--the so-called stimulus bill, 
which we now know contained a host of provisions having nothing to do 
with job creation--included an additional $250 million for the existing 
state longitudinal data systems.
    According to the U.S. Department of Education, the long-term goal 
of the program is to enable all states to create comprehensive P-20 
systems, which will track students from almost literally the cradle to 
their careers. The emphasis on ``interoperability'' makes clear these 
systems are intended to link personal and academic information from 
elementary and secondary school to workforce data systems that track 
adults later in life.
    These vast collections of information could significantly undermine 
individual privacy, particularly if they are compromised through 
ineffective security measures. In this era of technology and vast web-
based information archives, data that become public can never again 
truly be kept private.
    The potential privacy cost of these data systems--particularly if 
they do not maintain proper safeguards--cannot be ignored. Yet we must 
also consider the monetary costs associated with significant new data 
collection requirements.
    States and local school districts take on significant financial and 
personnel burdens to comply with data collection requirements. At a 
time when local schools are seeking less red tape and fewer federal 
requirements, we must carefully weigh the potential benefits with these 
costs.
    The stimulus significantly expanded the scope of federal 
involvement in student data collection, the consequences of which are 
only just beginning to emerge. I remain deeply concerned about student 
privacy, both under current programs and in light of proposed 
expansions in data collection and use through reauthorization of the 
Elementary and Secondary Education Act. I shared a number of these 
concerns in a letter to Secretary Duncan in February of this year, and 
I am eager to continue a dialogue about how individual privacy 
protections will be maintained and strengthened.
    As I said at the outset, data systems are an important component of 
our efforts to measure and improve student academic achievement and 
teacher quality. Yet as technology advances, we must ensure the data 
collected is narrow in scope and tightly controlled, with its use 
carefully monitored.
    The more data collected, the greater the risk of exposure--which is 
why every effort must be made to bring privacy laws into the 21st 
century to protect student information.
    Thank you, and I yield back.
                                 ______
                                 
    Chairman Miller. I thank the gentleman, and I would like 
now to introduce the panel of witnesses for the hearing.
    But without objection, I would first yield to the gentleman 
from Colorado, Mr. Polis, to briefly introduce our first 
witness, Richard Wenning.
    Mr. Polis. Thank you, Mr. Chairman.
    It is really my honor to introduce Rich Wenning, who I got 
to know during my time on the state board of education and 
being involved with educational reform in Colorado.
    Rich Wenning is currently the associate commissioner at the 
Colorado Department of Education, where he leads the Colorado 
Department of Education's public policy development and the 
design and implementation of Colorado's great educational 
accountability system and growth model, which we are going to 
be hearing about. He is the architect of the Colorado Growth 
Model.
    Before he joined Colorado Department of Education, Mr. 
Wenning was vice president for quality and accountability at 
the Colorado League of Charter Schools, where I had the 
opportunity to work with him in that capacity as well.
    Mr. Wenning served as an executive on loan to the 
superintendent of Denver public schools, where he focused on 
strengthening the district's performance management practices.
    Before Mr. Wenning moved to Colorado from Washington, D.C., 
he was president of the Education Performance Network, an 
affiliate of the New American Schools, not to be confused with 
the New America School, which is the charter school that I had 
founded and run prior to getting here, where he led a 
consulting practice focused on educational accountability 
systems and new school development.
    Mr. Wenning also served as a senior policy advisor to the 
CEO of the D.C. public schools during the school district's 
takeover by the congressionally appointed D.C. Control Board. 
While at D.C. public schools, he headed the Office of 
Intergovernmental Affairs and Educational Accountability.
    Prior to joining D.C. public schools, Mr. Wenning served as 
a clerk for the Senate Appropriations Subcommittee on the 
District of Columbia and as a staff member on the Senate 
Appropriations Subcommittee on Labor, Education and Health and 
Human Services.
    Mr. Wenning began his career at the Government 
Accountability Office where he led research on accountability 
and equity issues as well as market-based education reform 
strategies.
    And it is my honor to introduce Mr. Wenning to our 
Education and Labor Committee.
    Yield back.
    Chairman Miller. Thank you very much.
    Our next witness will be Mr. Kitchens, a superintendent of 
public schools for the last 15 years. Joe Kitchens is the 
national leader in the use of data systems to improve school 
achievement.
    Mr. Kitchens was instrumental in developing longitudinal 
data that enables teachers to make immediate and effective 
decisions in the classroom. In 2008 the Data Quality Campaign 
recognized Mr. Kitchens as the district data leader of the 
year.
    Katie Hartley is currently--teaches junior high math at 
Miami East Junior High in West Central Ohio. I am just trying 
to get my geography down here--in the analysis and the use of 
value-added data to make informed decisions concerning 
curriculum, instruction and academic programming.
    Joel Reidenberg is a professor of law and founding academic 
director of the Center of Law and Information Policy at Fordham 
Law School. He is an expert on information technology law and 
policy. Professor Reidenberg examines information privacy and 
Internet regulation.
    Professor Reidenberg has served as an advisor on data 
privacy, including special assistant to the attorney general 
for the state of Washington.
    Welcome to all of you. Before we begin, let me explain the 
lighting system. When you begin a green light will go on. You 
will have 5 minutes to make your presentation. In fact, we are 
going to extend to you a couple of minutes because I know some 
of you are also demonstrating the use of this information and 
you have got to pass a computer back and forth.
    And then when the red light comes on, you can see that--in 
a coherent fashion, if you can bring your testimony to a close, 
we would appreciate it.
    So, Mr. Wenning, we are going to begin with you. Welcome.

STATEMENT OF RICHARD WENNING, ASSOCIATE COMMISSIONER, COLORADO 
                    DEPARTMENT OF EDUCATION

    Mr. Wenning. I think we are on now. There we go.
    So, Mr. Chairman, members of the committee, thank you for 
inviting my testimony today on behalf of the Colorado 
Department of Education.
    I would like to provide my remarks in the context of 
Colorado's effort to create an aligned state and federal 
accountability system that maximized the use of longitudinal 
data to support state and local performance management 
purposes.
    Educational accountability systems include three basic 
components: rewards, sanctions and public reporting. Colorado's 
approach to educational accountability attempts to balance 
these components to promote local ownership of high-quality 
performance information.
    Local ownership drives insight and action by users--
students, parents, educators, administrators, business leaders, 
all members of the public. The key is fostering a common 
understanding among these stakeholders.
    Colorado believes that the results we expect must start 
with the end in mind, and that is our statutory bright line 
principle of 100 percent of students becoming college-and 
career-ready by the time they graduate.
    This universal goal clarifies our public responsibility and 
the focus of our accountability and performance management 
systems, and we are very pleased to see this principle in the 
president's blueprint for ESEA reauthorization.
    Growth models like the Colorado Growth Model make it 
possible to establish ambitious growth expectations for every 
student, based on what they need to be on track, and roll this 
up for state and federal accountability purposes.
    The clarity of the goal of readiness by exit, particularly 
in the context of common high standards, supports an essential, 
powerful and ongoing conversation between every student and his 
or her teacher and parents about how much growth the student is 
making and whether it is good enough.
    Most important is a conversation about how each student, 
teacher and parent must work together to ensure that goals and 
standards are met. And I refer to the capacity to 
constructively engage in this fundamental conversation, using 
information effectively to make adjustments and achieve goals, 
as Performance Management Capacity.
    This is the essential role of state longitudinal data 
systems. The key function: help parents constructively engage 
with educators and become knowledgeable choosers of schools.
    The availability of outstanding instructional improvement 
and social collaboration technologies and incentives for using 
them, particularly through initiatives focusing on educator 
effectiveness, represent vital tools for bringing about 
breakthrough improvements in performance.
    Thanks to advantageous timing--major advances in technology 
coinciding with Race to the Top--the nation is in a position to 
provide students and teachers the tools they need to achieve 
the results we expect. And we believe that we are primed to 
bring about breakthrough educator collaboration about 
performance and practice.
    Underpinning this collaboration in Colorado is a new and 
public conversation about performance fostered by SchoolView 
and the Colorado Growth Model. SchoolView and the Colorado 
Growth Model are state-owned tools that run on open-source 
software, and we are happy to share them with other states at 
no cost.
    We are pleased that several other states have already 
adopted our growth model, promoting cross-state collaboration 
and comparisons--Massachusetts, Indiana, Arizona, and I just 
learned that Wisconsin will be adopting the growth model as 
well that we have developed.
    What I am going to do is just show you a quick 
demonstration of what the public has access to, and you have 
got screen shots of the password-protected version in my 
testimony. And of course, that is secure data that only 
educators have access to, but that does allow an educator to 
get down to an individual student and have a conversation with 
mom and dad about how a child's progress is doing.
    The next key step is merging that with instructional 
resources so every teacher and student can be engaged in 
information about how each child is progressing.
    I am going to quickly bring up two districts. First I want 
to orient you to the basic four quadrant diagram that we always 
use. We look at growth on the horizontal axis and achievement 
on the vertical axis, so that we can understand schools' 
performance in a simple manner.
    I am going to pick Adams 14 School District, and then I am 
going to go ahead and pick Pueblo School District, and we are 
going to contrast two middle schools. Let me find Pueblo here.
    And you have got the screen shots of this as well. I am 
going to go and hit--choose only middle schools. And this is a 
nice tool just to help benchmark performance.
    The horizontal line in the middle reflects the average 
percent proficient or advanced in the state of Colorado. The 
vertical line is at 50th percentile growth. That is a year's 
growth in a year's time.
    I am going to highlight two schools. As we can see, we have 
just highlighted Kearney Middle School with an enrollment of 
470, a little bit below average in achievement, 44 percent 
proficient or advanced. Median growth percentile of 74--that 
means students at Kearney, the typical child here, makes as 
much progress or more than 74 percent of kids in Colorado with 
the same starting point.
    Here, in a school that is a little bit above average in 
achievement, Corwin International Magnet School, the median 
growth percentile is 28, meaning the typical student in Corwin 
is only growing as well as 28 percent of the kids in Colorado 
with the same starting point.
    Now we can go ahead in here--and this, of course, is all 
anonymous data at this point. We are going to disaggregate by 
other groups. And we can see that students eligible for free or 
reduced-price lunch are growing at a 29th growth percentile, 
meaning they are only doing as well as 29 percent of the kids 
in the state with the same starting point.
    We go up a level and we can take a look at this school, 
which, again, would have lower achievement but much higher 
growth, and take a look at students in the other group category 
here, and we can see that for low-income students at Kearney, 
their growth percentile is 74.5, meaning they have got very 
high growth, making very high progress, even though in our 
current system of looking at AYP both of these schools would 
look the same, but we can see that there are dramatically 
different growth rates among them.
    So you know, this kind of disclosure fosters a much more 
informed understanding of school and student performance, one 
that all of our stakeholders are becoming familiar with and 
interestingly, our educator associations are strong advocates 
of, because of the ability for teachers to understand what 
performance is like in different schools.
    Federal policy can either support or hinder the 
understanding, ownership and effective use of performance 
information at the individual, local and state level through 
the metrics required and rewards and sanctions established.
    As we reauthorize ESEA, it is critical that we get the 
federal, state and local roles right and give states sufficient 
latitude to build the performance capacity--the performance 
management capacity of stakeholders to achieve the breakthrough 
results that we need.
    Incremental changes in this relationship in access to data 
won't even come close to the unprecedented productivity 
expectations we seek for public education in the United States 
as we aim to getting all students ready for college and career 
success.
    Thank you, Mr. Chairman, members of the committee, and I 
will be, of course, happy to respond to any questions that you 
may have.
    [The statement of Mr. Wenning follows:]

   Prepared Statement of Richard J. Wenning, Associate Commissioner, 
                    Colorado Department of Education

    Thank you for inviting my testimony on behalf of the Colorado 
Department of Education at today's hearing. I'd like to provide my 
remarks in the context of Colorado's effort to create an aligned state 
and federal accountability system focused on all students reaching 
college and career readiness by high school graduation.
    How is Colorado refining its use of student performance data to 
improve accountability for student growth, better inform school 
improvement efforts, and more clearly communicate with the public?
    Educational accountability systems include three basic components: 
rewards, sanctions and public reporting. Colorado's approach to 
educational accountability attempts to balance these components to 
promote local ownership of high-quality performance information. We 
believe this local ownership drives insight and action by users: 
students, parents, educators, administrators, policymakers, business 
leaders, and the public-at-large.
    Colorado believes that the results we expect must start with the 
end in mind: namely our statutory bright-line principle of all students 
becoming college- and career-ready by high school graduation. This 
universal goal clarifies our public responsibility and the focus of our 
accountability and performance management systems: we must maximize 
individual student academic growth toward the destination of college 
and career readiness. We were very pleased to see this principle 
reflected in the President's Blueprint for ESEA Reauthorization.
    However, the Blueprint's intended use of the 2020 date for school 
vs. state accountability is unclear. Colorado feels strongly that an 
arbitrary date certain is not helpful for states to calibrate their 
school accountability systems. This is because a very credible date 
exists for every student, namely their graduation date. Growth models 
make it possible to establish ambitious growth expectations for every 
student, based on what they need to be on track and also allow a roll 
up for state and federal accountability purposes. This concept is 
discussed further below.
    The clarity of the goal of readiness by exit, particularly in the 
context of common high standards, supports an essential, powerful and 
ongoing conversation between every student and his or her teachers and 
parents about how much growth the student is making, whether it is good 
enough to catch up to proficiency (if the student is not proficient), 
keep up at proficiency (if the student is already proficient), or to 
move up to advanced levels of achievement. Most important is a 
conversation about how each student, teacher and parent must work 
together to ensure that the student meets goals and standards. I refer 
to the capacity to constructively engage in this fundamental 
conversation, using information effectively to make adjustments and 
achieve goals, as Performance Management Capacity. Plain and consistent 
language (like catch up and keep up) promotes meaningful conversations 
and illustrates the importance of focusing on the user of information 
when designing accountability systems.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The availability of outstanding instructional improvement and 
social collaboration technologies and incentives for using them 
(particularly through initiatives focusing on educator effectiveness) 
represent vital tools and opportunities for break-through performance 
improvements. Thanks to advantageous timing--major advances in 
technology coinciding with Race to the Top--the nation is in a position 
to provide students and educators the tools they need and deserve to 
achieve the outcomes we expect. We are primed to promote break-through 
educator collaboration about performance and practice. This is the 
essential role of state longitudinal data systems.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Underpinning this collaboration in Colorado is a new and broad 
public conversation about performance fostered by SchoolView and the 
Colorado Growth Model (see figures below). SchoolView is a state-owned 
tool that we are happy to share with other states. The Colorado Growth 
Model uses an open-source methodology run on open-source software. We 
are making the display tools available at no cost to other states 
through a memorandum of understanding, including commitment to the 
Creative Commons intellectual property agreement we use.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The Colorado Growth Model was approved by the U.S. Department of 
Education for use in its growth model pilot. It uses a common measure 
to describe how much growth each student makes and how much growth is 
needed to reach state standards. In doing so, it provides a complete 
history of individual test scores for all students. The model depicts 
growth in a user-friendly and interactive display that provides clear 
information about student progress toward reaching state proficiency 
levels within a specific period of time.
    The Colorado Growth Model supports a common understanding of how 
individual students and groups of students progress from year to year 
toward state performance standards based on where each student begins. 
The model focuses attention on measuring and maximizing student 
progress over time and reveals where, and among which students, the 
strongest growth is happening--and where it is not. It recognizes that 
the most effective schools are those that produce the highest sustained 
rates of student academic growth over time. Those schools may or may 
not be schools with the highest test scores every year.
    The Colorado Growth Model applies the common measure of Individual 
Student Growth Percentiles to school, district and state performance in 
a normative and criterion-referenced manner. The growth model provides 
a growth percentile ranging from 1 to 99 for every student--also 
described as ``Low,'' ``Typical'' or ``High''--and provides the 
percentile needed for a student to reach Partially Proficient, 
Proficient and Advanced levels within one, two, or three years.
    The model provides Median Growth Percentiles that are useful for 
benchmarking purposes and analysis of gaps in growth rates among groups 
of students. The overall State Median Growth Percentile for every grade 
is 50, so it is useful to look for differences from the 50th percentile 
when benchmarking the growth of the typical student.
    The model also provides information on the adequacy of growth to 
reach and maintain state-defined performance levels--we refer to these 
as Catch Up and Keep Up. On Track to Catch Up identifies students 
scoring Unsatisfactory or Partially Proficient in the prior year who 
achieved enough growth to reach Proficient within three years or by 
10th grade. On Track to Keep Up identifies students already scoring 
Proficient or Advanced who achieved enough growth to stay at least 
Proficient over three years or until 10th grade.
    The Colorado Growth Model fills an important gap in the current 
accountability system required by NCLB. To close the achievement gaps 
that plague our education system, we must eliminate gaps in how 
children are growing academically and ensure that our neediest students 
grow faster--more than a year's growth in a year's time--so that they 
catch up. The following graphics show the percentage of students 
achieving enough growth to catch up or keep up in Colorado.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Because AYP today is focused on each school's percentage of 
students who score ``at proficiency'' each year, it creates an overly 
anxious short-term focus on students ``on the cusp'' of proficiency--
the ones who should be easiest to push over the hump and therefore give 
schools a better rating.
    Instead, we should encourage teachers to focus on maximizing every 
child's progress toward ambitious standards--and developing every child 
to his or her full potential--while encouraging schools to focus on 
long-term effectiveness. The federal accountability system should 
measure whether that is happening. As we measure the performance of 
schools and districts, we must provide individual student data that 
educators need in order to focus on improving student learning. Every 
educator and parent should know in plain language how much growth a 
child has achieved and how much growth each child needs to reach state 
standards.
    Consistent with these design principles, the Colorado Department of 
Education used SchoolView to deploy a set of interactive Web-based 
display tools to provide Colorado Growth Model information about 
district, school and student performance to parents, educators and the 
public. (See images at end of document.) These display tools enable and 
promote new, well-informed conversations about learning among 
educators, students and parents while providing unprecedented public 
transparency in support of accountability, which allows us to disclose 
more, use fewer punitive labels, drive strong stakeholder buy-in, and 
foster sustained public pressure for reform.
    Colorado is very interested in collaborating with other states to 
create a common data visualization platform to drive broad public 
understanding about educational effectiveness and cross-state 
performance benchmarking. We are pleased that Arizona and Indiana have 
elected to work with us on this effort. In addition, Massachusetts has 
adopted our growth model for its use. Several other states are expected 
to adopt it as well.
    How can federal policy best promote improved student achievement?
    Federal policy can promote dramatically improved student outcomes 
by ensuring a coherent accountability system focused squarely on 
building the performance management capacity of stakeholders. For this 
to happen, the federal role in local school management decisions must 
be redefined in a manner that recognizes and respects the essential 
role that states, local educational agencies, schools and individual 
educators must play if sustained high is to become the norm. Federal 
policy can either support or hinder the understanding, ownership, and 
effective use of performance information at the individual, local and 
state levels through the metrics required and rewards and sanctions 
established.
    State education agencies (SEAs) play a critical role, and SEAs 
should be re-purposed to support school effectiveness. This will 
require federal support. SEAs must become reliable providers and 
brokers of high-quality support and service to schools and districts. 
They must focus on sustaining continuous improvement in schools and 
districts while also ensuring that they meet compliance obligations. To 
achieve this aim, SEAs will need to invest in research and development, 
program evaluation, and diagnostic school and district reviews focused 
on improvement efforts. This may require reallocation of resources. 
SEAs will also need to develop coherent knowledge management strategies 
to sustain their capacity levels.
    Flexibility is also necessary. Expanding allowable uses of funds 
would allow SEAs to invest in capacity-building strategies to deliver 
ambitious, desired results. ESEA reauthorization should extend far 
greater leeway in the use of federal funds at the state and local 
levels, but only to those SEAs that adopt high-quality accountability 
systems based on internationally benchmarked standards for college and 
career readiness. Incorporating these expectations into the 
reauthorization of ESEA will go far in ensuring students are truly 
prepared for college or rewarding careers.

Provide Flexibility in Identifying Low-Performing Schools for 
        Intervention
    In reauthorizing ESEA, Congress should be cautious in prescribing 
the details of how to identify the bottom five percent of schools based 
on achievement and growth. Some flexibility is needed so that states 
can calibrate accountability systems to meet the performance 
improvement needs of their particular schools and districts. The 
essential condition is that states must have a credible approach and 
rationale and be publicly transparent in how they do this. For states 
without an approved accountability system designed to identify the 
bottom five percent, ESEA could contain a default approach.
    For example, there are more chronically low-performing schools in 
Colorado than we can effectively intervene in with federal School 
Improvement Grant [1003(g)] resources. (See figures below.) As we 
prioritize schools for intervention, we would like to consider 
persistence and severity of need and whether the intervention fits the 
problem and can have a scalable impact. Also, to help ensure success, 
we need to engage communities to understand and support the change. 
Uncertainty about who is on the ``federal list'' vs. the ``state list'' 
has been unhelpful and has set back our efforts to take on our lowest-
performing schools.
    To illustrate, consider two hypothetical low-performing schools. 
One is a high-poverty, chronically underperforming high school with 
1,000 students and the other is a high-poverty, 50-student alternative 
education school with 20 continuously enrolled students from one year 
to the next. The alternative school focuses on students who have been 
incarcerated or have drug treatment needs and helps transition kids 
back to regular high school or helps students earn GEDs. Many of these 
very students have experienced failure and disengagement at the 
comprehensive high school. Both schools are persistently low-
performing, but the large high school is a few schools higher in the 
rankings and thus doesn't make it on the ``Tier 2'' list. However, its 
poor performance is a direct cause of the need for the alternative 
school, now targeted for turnaround.
    Colorado would like discretion to determine which school to serve--
to attack root causes rather than symptoms. The large high school is a 
good fit for turnaround. The alternative school is not. Forcing a 
leadership change at the alternative school could have a negative 
impact on student engagement and the school is doing about as well as 
other alternative schools. Without a doubt, we need to take on 
improvements in our alternative schools. However, state ownership and 
discretion are critical when we determine where to invest scarce 
resources in order to increase the supply of high-performing schools, 
to reach the largest number of students and maximize positive impact.
    Conclusions on which schools constitute the bottom five percent 
depend on the particular analytical lens one uses to identify schools 
for intervention. Consider the following graphics. The first graphic 
shows the lowest-performing five percent of schools in Colorado based 
on standardized growth and achievement data (growth weighted 2:1) over 
a combined three-year period across reading and math. The second and 
third graphics show the same schools highlighted by subject area. The 
axes reflect combined three-year student median growth rates and 
percentages proficient or advanced. While the first graphic suggests a 
tight cluster of low-performing schools, the other graphics show the 
variability of performance by subject area. The point here is that 
there is not just one way to identify the lowest five percent. 
Performance profiles vary by elementary, middle and high school levels. 
Some schools perform better in one subject or the other. ESEA should 
leave room for state discretion in making these determinations.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
    Chairman Miller. Thank you very much.
    Mr. Kitchens? You need your microphone.

  STATEMENT OF JOE KITCHENS, ED.D, SUPERINTENDENT OF SCHOOLS, 
                    WESTERN HEIGHTS SCHOOLS

    Mr. Kitchens. Yes. Okay. Got it?
    Chairman Miller. Is the green light on? Yes, I think you 
are on.
    Mr. Kitchens. Yes.
    Chairman Miller. Thank you.
    Mr. Kitchens. Thank you very much.
    It is indeed an honor to be here today, and I have my 
trusted assistant, Dr. Lisa McLaughlin, with me today, and she 
drives the boat here, so to speak.
    I wanted to start with a picture. You know, a picture 
sometimes can tell a thousand words, and so we have a picture 
that we would like to show the committee, and this is a picture 
of our graduation last year.
    And this is the way it has been for the last 5 years at 
Western Heights schools in Oklahoma City. Every year in a 
message of accountability we go to our people and we say, 
``This is a cohort of students that we enrolled in the ninth 
grade, and this is how many of that cohort dropped out, and 
this is how many of that cohort graduated, and this is how many 
of that cohort that we totally impacted and served.''
    And the message is simple, I think, in America right now. 
This is not the same country as when I was growing up in the 
1960s. I entered the ninth grade. I knew who I would graduate 
with. I understood that. Now it is not quite that way.
    In this particular diagram, every year we lose--or every 4 
years we lose 45 percent of our students, Mr. Chairman. We have 
to do something about this. We have to retool America's schools 
to deal with this issue of mobility.
    And so if you come to our school district this year, I 
promise you this will be the way it will be, and we will tell 
in the most serious way of accountability how things are going 
with our public school.
    If we can go forward, at Western Heights, we, too, operate 
and give our public an understanding of what is going on with 
our school system. We use an enterprise model. We want to show 
the performance of every student and every teacher's classroom, 
and we practice what we call managed access for privacy 
control.
    That is, the teachers used records of her students and her 
students only. Parent use the records of her family, their 
family, only. Principal views records of students in the site 
only. And it took us a while to get to that point, but that is 
where we are.
    So we are going to go forward, and we are going to go 
directly into our network right now, live, and we will show you 
a student's record that we have permission to show, and--if we 
didn't lose our login. We are going to have to log in right 
quick and catch the student record. Timed out on us.
    And as I said, we maintain total control, managed access 
control, of the record. If the status of a family changes, Mr. 
Chairman, we have automated controls that shut down access to 
the family record. And that way, we are protecting the privacy 
of individuals.
    And we need to come on down to the student record, Mr. 
Anderson. Okay. And now you see the record. And this is real-
time access of data. So we are going to look at Sean's 
enrollment, and it is not just real time. It is historical 
data.
    So let's look at current enrollment. Let's look at all 
enrollment. That is the current enrollment status, and he has 
been enrolled with us for 6 or 7 years, so we have historical 
data. One of the critical things about data in America is to--
in the schools is to have access to historical data.
    Let's look at schedule data. This is not something that you 
will normally see. And this is a current schedule. This is live 
data of Sean's current schedule, but in historical terms, let's 
look at Sean's schedule for the last 3 years.
    So for the past 3 years, we have been able to pull up 
historical schedules. If you wanted an electronic transcript, 
this is the way it would have to work. That is year seven. 
Let's get year eight. So, year nine data. Okay. Go back up. Go 
get year eight data. That is year nine. Okay. So you can see 
that we are moving back and forth in schedules over time.
    So let's go to attendance information. So we are gathering 
all of this information on the child, and we are going to get 
daily attendance right now, today. And if you could, let's just 
get it for the year, full year. And there it is. And if you 
want historical data, we can go back in time and pull it for 3 
or 4 years, every year. Okay.
    Let's offer the grades, the current grades. And as I said, 
the mother signed a release and understands how this is being 
used. And there are the grades. And let's look at the 
assessment information. Okay. Let's look at results on 
assessments. And let's look at the ACT plan. And here is the 
data on the plan.
    Let's go back. Let's look at a state test. The EOIs--these 
are state tests. And you are actually seeing how the record can 
pull up. Let's get it. And Algebra I assessment--we can go 
back. We can hit another assessment.
    And every assessment that the district gives is now 
available to the teacher, and the teacher of record only. And 
this allows us to move in and out, okay.
    Now, at ``other''--and this is what I call a cross 
boundary--we are actually pulling data from the child nutrition 
system into the system. And so we have what we call cross-
boundary transformation of data, twelve disparate data systems 
working simultaneously in managed access. The only reason 
anybody here is able to see this today is because this parent 
has signed off to let that happen. We can shut that down, okay.
    And let's go in at that point. Now, I would say to the 
people here in D.C., to our government, it is time to deal with 
mobility. You know, we have to do this on behalf of our 
children.
    This is not the same society as we had 25, 30, 40 years ago 
in the sense of we have people on the move. And we need to move 
data with children so we can make informed decisions about 
their educational lives.
    Thank you.
    [The statement of Mr. Kitchens follows:]

  Prepared Statement of Joe Kitchens, Superintendent, Western Heights 
                   School District, Oklahoma City, OK

    We live in a world where rapid advances in technology are 
commonplace, and leveraging technology to improve productivity is 
expected. With the passage of The American Recovery and Reinvestment 
Act (ARRA) of 2009, there now exists a ``once-in-a-lifetime'' 
opportunity to realize dramatic leaps in educational improvement to 
prepare our children for the future. According to the Data Quality 
Campaign (DQC, 2010), ``the education sector is on the cusp of becoming 
an information-based enterprise.'' It follows that the development of 
enterprise-based data systems are essential for the nation's 
educational progress.
    A true enterprise-based system always has, as its focus, the 
``product'' to be produced. In an education-based enterprise 
environment, the ``product'' is student success. An effective 
education--based enterprise system provides for the creation, storage 
and use of data from multiple disparate sources. Diverse data 
collection, combined with the application of effective rules for data 
management, means that enterprise-based educational systems hold great 
promise for impacting the school improvement process in a positive 
manner. Educators at all levels, from local classrooms to district 
offices to state and federal education agencies, must recognize that 
true school improvement--the type that is lasting and meaningful--will 
occur only when school systems and agencies are simultaneously 
supported via interdependent, classroom-driven longitudinal data 
systems that provide near real-time, appropriately aggregated/
disaggregated data to students, teachers, parents and other 
stakeholders, including state and federal agencies.
    The evolution of effective enterprise-based education systems will 
determine whether districts and states will actually be able to create 
huge improvements in success that these times demand. School 
improvement must become dynamic, where success is emulated and failure 
is eliminated. Such effective classroom-based, enterprise-oriented 
longitudinal data systems can be empowered through the use of emerging 
technologies (with protection of private data via managed access), so 
that stakeholders at all levels may better understand the real-time 
impact of success and failure in our nation's classrooms.

Enterprise-based Longitudinal Data Systems
    So, where do we begin? The classroom, of course! There are many 
educational issues to consider:
    <bullet> While enterprise systems should be designed to support 
``any time, any place'' learning, where does the majority of student 
learning occur at this time? Answer: in the classroom.
    <bullet> Where do teachers and students most commonly interact in 
support of learning activities? Answer: in the classroom.
    <bullet> At a minimum, where should educators strive to develop an 
immediate impact on student learning? Answer: It all begins in the 
classroom.
    <bullet> Who can most effectively impact student learning? Answer: 
the teacher.
    <bullet> Who among us can best influence students to achieve their 
potential? Answer: teachers, peers, parents, and mentors--those 
typically engaged in student support activities.
    All education initiatives should be challenged as to what value-add 
they will bring to the nation's students. It only makes sense that real 
and effective investment in the national education system must be 
initiated and measured in terms of individual student growth. Effective 
learning is personal, sometimes complex and always best supported by 
quality data analysis that informs instruction on a continuous, near 
real-time basis. It makes ``BIG'' sense that statewide longitudinal 
data systems (SLDS) and their continuous management be inexorably and 
effectively linked to America's classrooms. Real school improvement in 
America is contingent on the simultaneous development of seamless, 
enterprise-based longitudinal data systems at classroom, site, district 
and state levels across the nation that is reflected back to the 
enterprise system product--in this case, student success.
    The United States Department of Education (USDOE) has supported the 
creation and deployment of SLDS/enterprise-based initiatives in almost 
all of the states. These efforts need to be integrated and become a 
very critical aspect of educational improvement activities in all of 
America's schools. It is crucial that Americans have confidence that 
public education programs are in fact improving. When there are 
problems in schools, the public must know that those problems will be 
successfully addressed. This presents the case for enterprise-based, 
multi-level school management systems within a state's existing 
infrastructure. In principle, real school improvement activities must 
originate at the individual student level. Growth modeling of 
individual student success over time is absolutely the most valuable 
tool that local administrators can provide to students, their parents 
and teachers. If the development and deployment of SLDS architecture 
continues from a ``top-down'' perspective without effective evidence of 
coordinated linkage of student data over time, then how can these 
efforts ever establish a definitive value-add for instruction?

The Impact
    For the future of education, the importance of developing 
enterprise-based SLDS solutions is immense. It is the only way to 
address the issue of high student mobility that currently exists and 
will continue to increase. Our cohort-driven statistical analyses 
indicate that the nation may be missing the opportunity to effectively 
and appropriately educate a large segment of our country's student 
population (i.e., the mobile students). Some of our findings indicate 
that mobile students fail academically and drop out of school at twice 
the rate as non-mobile students. Enterprise-based systems which can 
support the distribution of near real-time, high-value data that 
informs instruction are absolutely essential in addressing the mobility 
problems of America's students. Our data indicates that, over a four 
year period, more than 50% of our secondary students are mobile. In 
some districts across the country, the numbers may be much higher. 
There is no solace to be gained--rather, great danger exists--when 
districts or states report that non-mobile students are succeeding 
academically while the plight of mobile children is ignored.
    The investment of millions of dollars in longitudinal data analysis 
should assist the USDOE and state educational agencies (SEAs) to become 
more accountable to the American public. However, there are other 
compelling reasons to use enterprise-based longitudinal data systems, 
such as establishing near real-time instructional need, and assisting 
in the delivery of timely instructional supports at the classroom level 
while creating and distributing student growth model analyses that 
validate instructional efforts.

Suggested Actions
    The Council of Chief State School Officers (CCSSO) and most states 
have worked to create their own versions of learning standards. 
Attempts to update learning standards, whether at the federal or state 
levels, must continue as the scope of knowledge grows. As long as 
learning standards are modified and assessments are revised, there will 
always be a need to ``bridge the gap'' between the ``old'' and the 
``new'' standards. We cannot afford to rebuild our education system 
every time learning standards change. There is a critical need in 
education to establish a common language that simultaneously and 
definitively describes the scope (what we teach) and methodology (how 
we teach) of past, current, and proposed instructional efforts at every 
level. In successful, enterprise-based solutions within corporate 
environments, the establishment of a ``common vocabulary'' is 
recognized and highly valued. We must proactively establish flexible 
and definitive descriptors of what we will teach our students and then 
map this common vocabulary to all valued state and national standards 
of instruction. This process of ``setting standards for standards'' 
could greatly improve the flexibility, efficiency and effectiveness of 
America's school systems, especially for mobile students. Such an 
effort in the basic core of curriculum needs to be, at a minimum, a 
PreK-16 effort to support the transition of students at all educational 
levels.
    In most successful companies within the corporate world, when a new 
vocabulary is introduced, it requires the development and adoption of 
new ``business processes'' that will provide new capacities to create, 
store, and use data more productively. These new business processes 
also require a review of data transmission at every level of functional 
operations. Since there currently is a heightened interest at the 
federal and state levels to collect academic performance data in the 
aggregate, and since there is an associated need for school districts/
sites to develop academic performance measures at the student level, 
there should be a concerted effort to study and develop new ``rules'' 
for enterprise-based management of educational data.
    In summary, it must be noted that the deployment of effective 
enterprise-based, longitudinal data systems is not widely evident in 
America's schools. Efforts to improve the transparency of the nation's 
school systems are dependent on the establishment of enterprise-based 
longitudinal data systems. Furthermore, other issues such as quality 
control, performance-based pay, and professional development are 
dependent on the establishment of enterprise-based longitudinal data 
systems at every level of education, including the classroom and 
student levels.

                               REFERENCE

Data Quality Campaign (DQC), 2010. 2009-10 Progress Report on State 
        Data Systems and Use. Washington, DC: 
        www.DataQualityCampaign.org
                                 ______
                                 
    Chairman Miller. Thank you.
    Ms. Hartley, welcome. I think we are going to--are we 
passing the computer down, Ms.--watch out there, now. We are 
going to have water and coffee and computers all over the 
place.

STATEMENT OF KATIE HARTLEY, M.ED., JUNIOR HIGH MATH TEACHER AND 
        VALUE ADDED SPECIALIST, MIAMI EAST LOCAL SCHOOLS

    Ms. Hartley. Good morning.
    Chairman Miller. Good morning.
    Ms. Hartley. Thank you for the opportunity to speak. My 
name is Katie Hartley and I teach--I currently teach middle 
school math at Miami East Local School in West Central Ohio. I 
am also the district's value-added specialist, and I am also a 
regional value-added specialist for the western region of Ohio.
    A nonprofit organization called Battelle for Kids brought 
this thing called value-added data to Ohio in 2002, and the 
superintendent we had at the time had the foresight to get us 
involved in the program. I was selected to be trained as a 
value-added specialist.
    And so as both--I am here today to speak to you both as a 
teacher who has used value-added data to inform decisions in my 
classroom and also as a value-added specialist who has worked 
with other groups of teachers to improve their practices.
    Value added data, at the very basic level, is a way to 
measure how much students grow in a year's time. It is the data 
analysis that takes a student's test history and test history 
of students like that child and they use all of this 
information to make a prediction for how a student should score 
on an assessment at the end of a school year.
    And then we compare that prediction with how the child 
actually does, and the difference between how the child should 
score and how they actually score, then, is attributed to 
teacher-and school-level decisions. So in a way, it is a means 
to measure the effectiveness of a teacher and of a school.
    At Miami East, we have used these data, like I said, for 
the last 8 years. We have used some with different groups of 
teachers. And I am very proud to say that for the last 2 years 
we have achieved the ``excellent with distinction'' rating from 
the state of Ohio, which is the highest level schools and 
districts can receive.
    You receive that rank by not only showing high achievement 
scores, graduation rates, attendance rates with our students, 
but also by showing positive growth scores, high value-added 
scores, for our students.
    I would like to go ahead and show you live some reports 
that we are able to use in Ohio. You can see from here that the 
EVOS report access has two different logins. There is the 
public-level access, which I am going to show you, and then 
there is an educator login.
    That is a role-based access. In other words, district 
leaders have access to district data. School leaders have 
access to school data. And teachers have access to teacher-
level data. At this time in Ohio, parents do not have access to 
their individual child's value-added data on the state system. 
That is up to districts to decide how that is disseminated to 
parents.
    So we can scroll through every district in Ohio. And we can 
automatically see a report here, and this is for Miami schools' 
reading value-added scores. It is a very basic evaluation of 
growth scores for students in our school district.
    The analysis starts in grade four, and the intuitive nature 
of the green, yellow, red--green obviously means that students 
in those grade levels in reading made more than a year's 
growth. They had high value-added scores. Yellow would mean 
that they were close to making a year's worth of growth. And 
then the red would be areas where students did not make a 
year's worth of growth in that subject.
    And this is also historical. We can look at data from 2007, 
2008 and 2009. We can look at not just how did our students 
perform last year but how have they over time performed in this 
subject at this grade level. And then there is a 3-year average 
here.
    I can go back up here to the top, and I can choose, instead 
of reading, math. In Ohio, under the Ohio system, we only do 
value-added measures at the state level for reading and math. 
Districts do have the option to be enrolled in a project called 
Project SCORE, which Miami is in, that gives additional value-
added data for science and social studies. It also gives scores 
for third graders, which the state does not give, and then it 
also--we have a high school pilot.
    But we can see this is now math. We were looking at reading 
before. Now we are looking at some math value-added scores for 
Miami East, again by grade level and by year. So we can see 
that over time our fourth grade math students are doing a--
making tremendous gains.
    In fifth grade math, we have gone from a green to a yellow 
to a red, so as a fifth grade teacher or as a principal of that 
building, you know, we need to think about what are the--what 
has been happening in fifth grade math that has led to these 
changes over time.
    Sixth grade math, we are green. Then we drop down to yellow 
but jump back up to green. So we made some adjustments there. 
And so you can see from this, we can, as a school and as 
teachers, look at how our students have grown and make 
decisions about how we are teaching, what we are teaching, and 
what we can do differently to impact that.
    I unfortunately don't have a visual for this, because it 
contains student-level data, but I would like to give an 
example--I taught fifth grade math. This was probably about 6 
years ago. And one of the pieces of information that teachers 
receive is a disaggregated report--in other words, it tells us 
how we grew our top achieving kids and our bottom achieving 
kids and all kids in between.
    And what I saw in one of the reports that I got for 
students in my class was the fact that my high achieving 
students had very high growth scores and my low achieving 
students had very low growth scores, and that is obviously a 
big red flag.
    So as a teacher I had to examine what I was teaching, how I 
was teaching it, how I was assessing it, how I was addressing 
the needs of those lower achieving students, made some 
modifications, did some different things with assessment, 
instruction, brought in some volunteers, did some small group 
work, did some after school work with those students, and was 
able to use value-added scores from the following school year 
to measure whether or not those changes had been effective.
    Luckily, they were, and our low achieving students were 
able to make those gains that we wanted them to make and, in 
fact, across the board our middle and high achieving students 
also made positive growth gains based on that.
    And then one last thing I would like to show, which I think 
is important, is the ability that we have to look at students 
in particular teachers' rooms. These are from last school year. 
These are sixth grade math reports. There were three different 
teachers in our district that taught sixth grade math.
    And just being able to look at the different strengths that 
teachers have--this is a report for Teacher A, and we can see 
that the--these are broken apart into low achieving students, 
middle achieving students and high achieving students. The 
green bar there in the middle would represent students at that 
level making a year's worth of growth, making the--making it 
where they are predicted to make it.
    And we can see that Teacher A is helping her low and high 
achieving students to make a year's growth, but luckily is 
taking her middle achieving students and taking them even 
further. Those children in the middle are scoring higher than 
they are predicted to score based on their test history and 
students like them in the past have scored.
    Teacher B has a different look. Teacher B is making 
positive growth with her lowest achieving students. The low 
achieving students in Teacher B's class were making more than a 
year's growth in a year's time.
    Middle achieving students were making it where they were 
predicted to. And high achieving students were making it just a 
little bit lower than they were predicted to, and this is an 
important thing to examine.
    We often in schools--when we are measured on whether or not 
children pass a state test, then that tends to be the focus. 
And we sometimes forget those students at the high end who we 
know are very, very--they are gifted. They are very bright. 
They are going to pass the state test with little to no 
intervention from the school.
    We still need, as a school, to look at how we have grown 
those children, have we met their needs. And so if we look at 
Teacher A and Teacher B, they obviously have very different 
strengths.
    And this is a very important piece of information that then 
needs to be shared between these two teachers and the 
principal--you know, how is Teacher A working with students 
that is helping those middle achieving students make the gains 
that they are making, and how is Teacher B doing things that is 
helping those low achieving students make the gains that they 
are making.
    In other words, not all teachers have the same strengths, 
and if we can leverage the differences and the strengths that 
teachers have and use that in a forum together to discuss how 
we are teaching, that is the real power of using value-added 
data.
    Thank you.
    [The statement of Ms. Hartley follows:]

    Prepared Statement of Katie Hartley, Teacher, Value Added Data 
         Specialist, Miami East Local Schools, Miami County, OH

    Hello Chairman Miller, Ranking member Kline and Members of the 
Committee: Good morning, my name is Katie Hartley and I am a teacher 
and value added data specialist for Miami East Local Schools in Miami 
County, Ohio. I'm here today to talk to you about how I have used value 
added and achievement data in my classroom and with other groups of 
teachers to make decisions about curriculum and instruction.
    Battelle for Kids, a nonprofit organization, brought value added 
data analysis to schools in Ohio in 2002, and Miami East was one of the 
first school districts in the state to begin to use this kind of 
information. Value added data models use a student's individual test 
history, along with historical data of other students to predict each 
student's performance. Each student's actual performance is then 
compared to their predicted performance to find a value added score. 
The difference between a student's predicted performance and actual 
performance (positive or negative) is attributed to the school and/or 
teacher. This value added measurement allows schools and teachers to 
evaluate the effectiveness of current enacted curriculum and 
instructional practices.
    Over the past eight years I have used these value added scores from 
students in my classes to evaluate the strengths and weaknesses of my 
teaching, made changes accordingly, and made judgments about these 
changes with value added scores from subsequent tests. For example, 
when low achieving students in my fifth grade math class received lower 
value added scores than high achieving students in the same class, I 
had to examine what skills I was teaching in that class, how I was 
teaching those skills, and how I was measuring students' understanding 
and mastery of the skills. I had to decide what I was doing in my 
classroom that was allowing high achieving students to score even 
higher than predicted, but was keeping my low achieving students from 
scoring where they were predicted. I decided to keep the curriculum the 
same since I was teaching all the skills and knowledge that the Ohio 
Department of Education put forth for fifth graders in math, but 
decided to change some of my instructional and evaluation techniques. I 
incorporated more cooperative learning opportunities for students to 
work together, more hands on activities for students, more games that 
practiced essential skills, and also arranged for many low achieving 
students to have additional help with their math work either from a 
volunteer or myself. When the value added scores came out the following 
year, students at all achievement levels (high, middle and low-
achieving students) had much higher value added scores than the year 
before. Without the value added scores for students in my classes, I 
would not have known I needed to make these changes, nor would I have 
had a means to measure the effectiveness of the changes I made in my 
teaching. Without a longitudinal data system with the ability to link 
student scores over time, this information would not have been 
available. In other words, I would not be as effective a teacher 
without these data, and without the support of my local and state 
agencies. Dr. Todd Rappold, my district superintendent, and Dr. Deborah 
Delisle, state superintendent, both believe strongly in the use of data 
to inform educational decisions, and in giving educators the tools they 
need to do this effectively and successfully.
    I have also worked with all teachers at Miami East Schools on the 
use of value added and achievement data to make decisions, and plan for 
instruction for each school year. Our ability to look at student level 
data both for achievement and value added scores has allowed us to make 
many improvements in teaching and learning in our schools. Miami East 
has received the top rating the state of Ohio gives school districts, 
`Excellent with Distinction' two years in a row. This rating is 
reserved for school districts that not only have high achievement 
scores, high graduation and attendance rates, but also have at least 
two consecutive years of positive value added scores. The staff at 
Miami East has demonstrated a dedication to using data to improve 
instruction, and our students have benefited from this work. The 
quality of the education students at Miami East receive is directly 
correlated to their access to longitudinal student level data, 
professional development time and resources around the use of value 
added data to inform instruction, and the leadership and support of the 
state superintendent, the district superintendent, and the district 
value added specialist. A quality education for Miami East students is 
made possible by quality student level data.
                                 ______
                                 
    Chairman Miller. Mr. Reidenberg? Am I pronouncing your name 
correctly?

  STATEMENT OF JOEL R. REIDENBERG, J.D., PROFESSOR OF LAW AND 
   DIRECTOR OF CENTER ON LAW AND INFORMATION POLICY, FORDHAM 
                    UNIVERSITY SCHOOL OF LAW

    Mr. Reidenberg. Reidenberg.
    Chairman Miller. Reidenberg. My apologies.
    Mr. Reidenberg. Good morning, Mr. Chairman. Thank you very 
much to you and to the distinguished members of the committee 
for inviting me to testify this morning.
    It is really an honor and a privilege to be able to address 
the important privacy issues associated with databases of 
children's educational records.
    My testimony this morning is going to draw on the Fordham 
study that the ranking member introduced a few minutes ago that 
I co-directed along with my colleague Jamela Debelak, who is 
here with me, from Fordham.
    I am testifying today, though, as an academic expert and I 
am not representing the views of any organization. What I would 
like to do in this oral part is to summarize the written 
statement I have provided to the committee for the record.
    My research in this area on K through 12 educational record 
databases began in October of 2006. At the time I was serving 
as an elected member of the Board of Education in Millburn, New 
Jersey--Millburn Township in New Jersey. So I was very 
sensitive to how we measured the performance of our schools, 
the performance of our teachers.
    But as a board member, I heard a speech by the commissioner 
of education at the time extolling the roll-out of the New 
Jersey SMART data warehouse--that is what New Jersey calls it. 
And this was a database that was to contain very detailed 
identifiable information on our district's children that we, as 
a school district, were going to be required to report to the 
state.
    And in listening to the commissioner speak, I was struck 
that there seemed to be almost no thought given to the privacy 
considerations. There seemed to be no thought given to whether 
the data was necessary for an educational evaluation purpose, 
whether there were access or use restrictions on the data that 
the state was collecting from us. There were no data retention 
policies associated with the data that the state was 
collecting.
    As a board member, I felt as though I was in a position of 
knowing that my district was about to violate FERPA in sending 
this information to the state.
    I was troubled that the data warehouse was established 
without public transparency. It was a surprise to all of us. 
And then as an academic, I started to look into the program and 
saw that it was part of a national trend driven by No Child 
Left Behind, recently reinforced by the stimulus bill.
    And I went back to Fordham and set out with a research team 
to try to learn what was existing across the country. And let 
me stress that our study and I do not challenge the importance 
and the legitimacy of data collection and the use of data to 
inform the educational decisions that we just heard about, and 
to make assessments of performance.
    But rather, what I seek to do is highlight the critical 
need for policy makers to address publicly and to incorporate 
privacy rules in the planning and development of these systems.
    I would like to make three points from the Fordham study. 
The first is that states are warehousing children's sensitive 
personal information at the state level. Our study found that 
most states have established state-wide databases of children's 
information.
    Typically, it was in identifiable form at the state level, 
because very few of the states have firewalls that would 
effectively separate the children's identity from the state 
officials who would have access to or be maintaining the 
databases.
    Approximately one-third of the states are using Social 
Security numbers as the identifier for children at the state-
level database. For a disturbing number of states--and I can 
cite states like Alabama, Arizona, Maryland, Nevada, Oklahoma--
key information on the data warehousing programs, such as the 
types of data being collected, were simply not publicly 
available.
    Our team of researchers--we had eight graduate students 
looking at this, trying to find it--weren't able to find the 
information. It means that state governments are conducting 
major data processing operations essentially in secret from 
parents and from the public at large.
    We found that sensitive data is collected, certainly, for 
NCLB reporting obligations, things like test scores, race, 
disability status. But we also found that other data was 
commonly collected that didn't appear to be for NCLB reporting 
purposes and didn't appear on its face to be associated with 
core educational assessment purposes.
    So for example, 22 percent of the states were collecting at 
the state level, in--often in identifiable form, whether 
particular students were pregnant when they were in school. 
Forty-six percent of the states were collecting mental health 
illness information, whether students had been jailed.
    Louisiana requires the state--the school districts to 
report to the state level by Social Security number whether 
students use foul language in class.
    Data seems to be collected for other goals that--like 
delivery of social services. So for example, there are states 
that collect the birth weight of a teenage mother's baby. So it 
is important for social services purposes, but the question 
that we pose is is it necessary for that to be part of an 
educational record in identifiable form at the state level.
    We found that the United States Department of Education was 
promoting interoperable standards. Interoperable standards are 
important and valuable for the efficiency and the efficacy of 
the data collection, but it also means that creating a national 
database of schoolchildren becomes a turnkey operation, 
particularly if little attention is paid to privacy in the 
construction of the databases.
    The second point that I would like to raise is the Fordham 
study documented that basic privacy protections were lacking, 
and rules need to be implemented to assure children's data is 
adequately protected.
    The lack of transparency for the data warehouses was deeply 
troubling, and our research team had significant difficulty and 
was unable to find publicly available information on what the 
data being collected by the states was.
    That means for parents, there are secret surveillance 
systems of their children. For the public, it means that state 
governments aren't accountable because the public doesn't know 
what they are doing.
    We found most states did not have detailed access and use 
restrictions on the data held by the state. Most states did not 
require database users to enter into confidentiality 
agreements. Most states did not have data retention policies.
    And it is very significant, because that means when states 
collect information on discipline, children's interaction with 
the juvenile justice system in particular, the juvenile justice 
system seals those records, often expunges those records when 
the child reaches 18. The state educational databases do not. 
There is no data retention requirement. There is no 
expungement. There is no seal. We found this to be both 
surprising and troubling.
    Most states are using identifiable children's information 
at the state level. Do they really need to know the identity of 
particular children? Anonymous information proves to be very 
difficult, to actually make the data anonymous.
    We heard the example from Colorado. The data is anonymous, 
yes, but deleting names, creating new I.D.s, isn't sufficient. 
Computer science techniques today make it very easy to re-
identify data. If you can look at clusters and cross matching 
and cross referencing clusters, it becomes very simple to re-
identify from purportedly anonymous information. That is a very 
significant finding that we saw in the data.
    And lastly, we found that just the sheer scope of data 
collection reflects that states do not seem to be worrying 
about the very basic privacy principle of data minimization--in 
other words, that data collections not just be fishing 
expeditions because we think the data at a point in the future 
will be useful.
    The third point that I would like to raise from the Fordham 
study is that strong security is necessary to minimize the 
risks of data invasions, scandals and meltdowns. We are talking 
about centralized warehouses of children's personal 
information. That is a target.
    Data security measures won't address some of the essential 
policy decisions for privacy, like use restrictions, like data 
minimization or retention periods. But what they do do--they 
play a critical role in implementing the protection to prevent 
unauthorized access, to prevent unauthorized use, and to 
prevent disclosures.
    It is inevitable that children's information will be 
compromised from these central databases. Just look at the 
financial services sector and how, in the banking industry, we 
have seen the number of data leaks.
    In the education sphere, from state databases we already 
had the experience of Nashville, Tennessee. About a year ago, 
all of the educational information on public schoolchildren in 
the city of Nashville and 6,000 parents were disclosed on the 
Internet, freely available on the Internet, because it was not 
properly secured.
    Data loss will occur. A hundred thousand students and 
teachers in Greenville, North Carolina had their information 
lost when a laptop was stolen. Data spying and voyeurs and 
predators will go after the information. So we have to be very 
careful how we secure it.
    Importantly, states should avoid storing identifiable 
information. That is the best--one of the best protections. 
State-of-the-art encryption is necessary. Access controls, use 
restrictions, need to be implemented.
    And like the Internal Revenue Service, audit logs that 
indicate when problems are there, misuse is there, intrusions 
have occurred ought to be kept.
    Let me conclude by recommending three steps that Congress 
can take to protect children. As a condition of continued 
federal funding of state warehouses of children's information, 
I think Congress should first require that states articulate 
through statute or regulation the justification for the 
collection of each element of identifiable information. This 
assures that legitimate uses are transparent and sufficiently 
compelling to warrant the privacy tradeoffs.
    Second, require that states define specific data retention 
periods that are clearly linked to the specific purpose for 
which the data is originally collected. This minimizes the risk 
of data spills, protects against mission creep.
    And lastly, that states be required to adopt an oversight 
mechanism for the collection and use of children's educational 
data. We have seen this in the Department of Homeland Security. 
Congress required DHS to have a chief privacy officer. Congress 
has required the Department of Justice to have a chief privacy 
officer. This model provides for transparency to the public and 
oversight for compliance with privacy requirements.
    Thank you very much.
    [The statement of Mr. Reidenberg follows:]

Prepared Statement of Joel R. Reidenberg, Professor of Law and Founding 
   Academic Director, Center on Law and Information Policy, Fordham 
                        University School of Law

    Good morning Mr. Chairman, Ranking Member, and distinguished 
members of the Committee. I would like to thank you for the invitation 
to testify today and to commend you for recognizing the importance of 
privacy protections in the development of databases of children's 
educational records.
    My name is Joel Reidenberg. I am a Professor of Law and the 
Academic Director of the Center on Law and Information Policy 
(``CLIP'') at the Fordham University School of Law. As an academic, I 
have written and lectured extensively on data privacy law and policy. 
Of relevance to today's hearing, I directed with Jamela Debelak, CLIP's 
Executive Director, the CLIP report ``Children's Educational Records 
and Privacy: A Study of Elementary and Secondary School State Reporting 
Systems'' (Oct. 28, 2009), http://law.fordham.edu/childrensprivacy. I 
am a former chair of the Association of American Law School's Section 
on Defamation and Privacy and have served as an expert adviser on data 
privacy issues for the Federal Trade Commission, the European 
Commission and during the 103rd and 104th Congresses for the Office of 
Technology Assessment. I have also served as a Special Assistant 
Attorney General for the State of Washington in connection with privacy 
litigation. In appearing today, I am testifying as an academic expert 
and my views should not be attributed to any organization with which I 
am affiliated.
    My testimony today draws on the Fordham study and I would like to 
make three points directly from it:
    1. States are warehousing sensitive information about identifiable 
children.
    2. The Fordham CLIP study documents that privacy protections are 
lacking and rules need to be developed and implemented to assure that 
children's educational records are adequately protected.
    3. As part of basic privacy standards, strong data security is 
necessary to minimize the risks of data invasions, scandals and melt-
downs from centralized databases of children's personal information.
    My research focus on the treatment of K-12 educational records 
began in October 2006. As an elected member of the Millburn Township 
Board of Education in New Jeresey, I heard a speech by the state 
commissioner of education extolling the roll-out of the NJ SMART data 
warehouse later that fall. The NJ SMART program required our district 
to provide detailed, sensitive information about our school children on 
an identifiable basis to the state's central database. None of the 
commissioner's plans indicated any effort to focus data collection on 
truly necessary information, nor did they reflect any limitation on the 
purposes for use of the data once collected, nor did the plans appear 
to have any means for parents to check the accuracy of state-held 
information, and nor did the plans have any limitations on the length 
of storage. The only recognition that privacy might be affected by NJ 
SMART was an architecture that included data security mechanisms. As a 
Board member, I was disturbed that the state had given our district a 
mandate that would invade our children's privacy for ill-defined 
purposes in a way that appeared to put the district in clear violation 
of the Family Educational Rights and Privacy Act (``FERPA''). I was 
equally troubled that this database was established without public 
transparency and debate on the policy ramifications for children's 
privacy. Our Board and others we asked had not even heard about the 
program.
    In delving further into the New Jersey program, it became apparent 
that New Jersey was part of a national trend to create state data 
warehouses of children's educational records driven by No Child Left 
Behind and more recently expanded by the American Recovery and 
Reinvestment Tax Act of 2009. The national trend similarly had emerged 
without public debate regarding privacy. As a result, we launched the 
Fordham CLIP study to determine what existed across the country at the 
state level, to assess whether states were protecting the privacy of 
the children's information in these databases and to make best 
practices and legislative reform recommendations as appropriate.
    At the outset, I would like to stress that our study and I do not 
challenge the importance and legitimacy of data collection and use to 
better inform educational outcomes. Rather, I seek to highlight the 
critical need for policy makers to incorporate privacy rules in the 
planning and implementation of these systems so that the important and 
legitimate goals of educational accountability do not undermine privacy 
and so that the important and legitimate privacy concerns do not pose 
unnecessary obstacles to educational accountability.
1. States are warehousing children's sensitive personal information
    The Fordham study found that most states have established state-
wide databases of children's educational records. The information held 
at the state level is typically identified or identifiable to 
individual children because the databases use unique identifiers for 
each child and very few states use systems that establish a firewall to 
keep the identity of individual students known only at the local level. 
One-third of the states track students through their social security 
numbers. In other words, most states are developing systems that 
centralize at the state level each individual child's information 
rather than transferring data aggregated by cohorts to the state level.
    For a disturbing number of states such as Alabama, Arizona, 
Maryland, Nevada and Oklahoma, key information on the data warehouse 
programs including the types of data that were being collected and used 
were not publicly available. This means that state governments are 
conducting major data processing operations involving children's 
sensitive information essentially in secret from parents.
    In states where information was publicly available on the data 
warehouse programs, the Fordham study found that states were collecting 
children's personal information to comply with NCLB reporting 
obligations such as test scores, race, ethnicity, gender, and 
disability status. However, the states were also collecting sensitive 
information well beyond NCLB reporting requirements. The following 
table gives some examples of the sensitive data collected by states.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Many additional data elements included in the state databases do 
not appear to be collected for NCLB reporting purpose nor for core 
educational assessment purposes. Louisiana schools, for example, must 
report to the state the social security number of each child who is 
disciplined for the use of foul language in school.
    Data warehouses appear to gather data for other goals like the 
delivery of social services. For example, Florida uses social security 
numbers to collect information about its K-12 children and collects the 
birth weight of a teenage mother's baby. While the birth weight of a 
teenage mother's baby can be valuable information to anticipate social 
service needs, the decision to include this information as part of an 
educational record at the state level permanently linked to the 
teenager and the baby raises many privacy risks that need to be 
justified and balanced against the actual benefits for the mother and 
child. The following table illustrates some of these types of data 
found in the state data warehouses.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    In developing data warehouses, the U.S. Department of Education has 
encouraged the use of interoperable data standards. Organizations, such 
as the Data Quality Campaign and the Standards Interoperability 
Framework Association, have significantly advanced the development of 
common data protocols. These common protocols are valuable to improve 
the efficiency of data collection and use. But, the use of 
interoperable data standards across state lines also means that the 
creation of a national database of children becomes a turn-key 
operation. Until the recent efforts of the Data Quality Campaign, basic 
privacy protections were not included as key components of the work on 
common data standards.
2. The lack of privacy protection
    The Fordham study showed that the state data warehouses of 
children's information typically lacked basic privacy protections and, 
often, were not in compliance with FERPA.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    As a starting point, the states' lack of transparency for these 
databases is deeply troubling. Our research team had significant 
difficulty and was unable to find publicly available information on the 
data collected by many states. As far as parents are concerned, this 
means that state governments have created secret surveillance systems 
for their children. The non-transparent nature of these systems also 
means that state government can avoid public accountability for its 
treatment of children's personal information.
    The technical architectures generally did not adequately seek to 
de-identify children's information at the state level. To the extent 
that outcome assessment can effectively be accomplished by examining 
cohorts at the state level, rather than individual children, there is 
no need for the state educational agency to have individual student 
records. The use of truly anonymous information would avoid privacy 
issues. However, we did not systematically see careful attention to 
architectures that established identity firewalls. Professors Krish 
Muralidhar and Rathindra Sarathy have demonstrated that re-
identification of specific children from purportedly anonymous student 
information is already a problem in the context of public reporting on 
school performance.\1\
---------------------------------------------------------------------------
    \1\ Krish Muralidhar & Rathindra Sarathy, ``Privacy Violations in 
Accountability Data Released to the Public by State Educational 
Agencies,'' paper presented to the Federal Committee on Statistical 
Methodology Research Conference, Washington DC, November 2-4, 2009 
available at: http://gatton.uky.edu/faculty/muralidhar/
EdPrivacyViolation.pdf (last visited Apr. 9, 2010).
---------------------------------------------------------------------------
    Data minimization, a basic privacy principle that collections of 
personal information should not be conducted as general fishing 
expeditions, is absent as a guiding policy for the state warehouses. 
The scope of sensitive children's information that is collected by 
states appears to be excessive with respect to the context and core 
educational purposes of the databases.
    The state data warehouses generally did not have clear legal 
limitations on the purpose for which data could be accessed and used. 
Without purpose limitations, states, such as New Jersey, are in facial 
violation of FERPA. FERPA only permits local schools to report data to 
state agencies in identifiable format for ``audit and evaluation'' 
purposes. The lack of purpose limitations strongly suggests that states 
will begin a mission creep and use children's educational data for a 
multiplicity of purposes unrelated to assuring the educational 
performance of the state's schools. Most states also did not explicitly 
require state officials to agree to confidentiality before accessing 
student information.
    The states by and large ignore data retention policies. The lack of 
storage limits means that a child's third grade peccadillo and youthful 
indiscretions will indeed become a ``permanent record'' since states 
store detailed disciplinary and social information, including in some 
instances if a child was the victim of bullying. The lack of storage 
limitations is a facial violation of FERPA as FERPA requires that data 
transferred to state authorities for audit and evaluation purposes not 
be retained longer than necessary to accomplish those permissible 
purposes. The lack of durational limits also undermines other important 
public policies. For example, the detailed disciplinary information 
collected on identified students, including involvement and convictions 
under the juvenile justice system will be held indefinitely as part of 
the ``educational records'' database. While the juvenile records are 
typically sealed and may be expunged when a minor reaches adulthood, 
the state's educational database without a data retention policy does 
not provide any such protection.
    Many states outsource the data processing services for their data 
warehouses. While security and confidentiality provisions can be found 
in some of these contracts, the clauses are typically very circumspect 
with respect to the vendor's obligations. Vendor contracts are 
generally silent with respect to uses and retention of data by the 
vendor.
    The Fordham CLIP study identified key privacy protections that need 
to be implemented for children's educational record databases:
    <bullet> States should implement a technical architecture to 
prevent access to identifiable information beyond the school officials 
who need to know
    <bullet> States that outsource data processing should have 
comprehensive agreements that explicitly address privacy
    <bullet> States should limit data collection to necessary 
information for articulated, defined purposes
    <bullet> States should have specific data retention policies and 
procedures
    <bullet> States should explicitly provide for limited access and 
use of the children's data
    <bullet> States should provide public notice of state data 
processing of children's information
3. Strong data security is necessary to minimize the risks of data 
        invasions, scandals and melt-downs from centralized databases 
        of children's personal information
    In addition to basic privacy protections, data security is critical 
when information relating to identifiable children is centralized at 
the state level. Data security measures do not address the essential 
policy decisions for privacy protections like data minimization, 
purpose limitations, and defined storage periods. But, data security 
measures play a critical role in the implementation of privacy 
protections specifically with respect to the prevention of unauthorized 
access, use and disclosure of personal information.
    The centralization of children's information at the state level 
increases the risks and scope of loss from security incidents. The 
centralization means that data security breaches will be on a larger 
scale than if data were held solely at the local level. For example, 
according to the Congressional Research Service up to 1.4 million 
residents of Colorado had their names, social security numbers and 
birth dates compromised when a database from the state department of 
human services was stolen from a private contractor in Texas.\2\
---------------------------------------------------------------------------
    \2\ CRS Report for Congress, Data Security Breaches: Context and 
Incident Summary, p. 62 (May 7, 2007) available at: http://www.fas.org/
sgp/crs/misc/RL33199.pdf
---------------------------------------------------------------------------
    It is inevitable that security of the children's information will 
be compromised. The experiences in the financial services sector that 
have been revealed by data security breach notification laws reflect 
the magnitude of this risk. Despite the deployment of significant 
resources and the economic incentive for banks to avoid liability, the 
number of compromised credit cards in the United States is staggering. 
The Heartland Payment Systems breach alone in 2009 involved more than 
100 million credit and debit card transactions. State departments of 
education have neither the resources nor the same high level of 
incentive to protect children's information to the degree that the 
financial services sector does.
    The substantial security risks to children's educational records in 
data warehouses can be illustrated by a few examples:
    <bullet> Data spills occur when school or state officials fail to 
assure adequate access controls and encryption for student records

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    <bullet> Hackers gain access to data when it is insufficiently 
protected

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    <bullet> Data loss and theft compromise educational records when 
they are insufficiently protected

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    <bullet> Data spys and voyeurs who are internal employees with 
access privileges abuse their access to personal information for 
personal gain

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Strong data security for children's educational records is, thus, 
essential. Four critical features for a strong security system are:
    <bullet> States should avoid the storage of identifiable 
information whenever possible.
    <bullet> States should use state-of-the art encryption to protect 
children's data
    <bullet> States should have robust access control and use 
authorization policies in place
    <bullet> States should, like the IRS, maintain audit logs that 
track system use to detect intrusions and police internal misuse

Conclusion
    The Fordham CLIP Study recommends several measures that I believe 
Congress should consider as a condition of continued federal funding of 
state data warehouses of children's information:
    1. Require that states articulate through statute or regulation the 
justification for the collection of each element of identifiable 
information. This assures that the legitimate uses are transparent and 
sufficiently compelling to warrant the privacy trade-offs.
    2. Require that states define specific data retention limitations 
that are clearly linked to the specific purposes for which the data is 
originally collected. This reduces the risks of data spills, protects 
against mission creep, and
    3. Require that states adopt an oversight mechanism for the 
collection and use of children's educational data. A Chief Privacy 
Officer in the state departments of education would, like the CPOs in 
the federal Department of Homeland Security and Department of Justice, 
provide transparency to the public and oversight for compliance with 
privacy requirements.
                                 ______
                                 
    Chairman Miller. Thank you.
    And thank you to all of you for your testimonies.
    Ms. Hartley, I am going to start with you, and then if 
maybe Mr. Kitchens and Mr. Wenning can respond to the question, 
but I think it--you showed us Teacher A and B, and the--as we 
look forward to a more collaborative workplace and school site, 
and hopefully between best practices between schools and what a 
district's goals are, when we look at that information on how a 
particular teacher was doing in math or reading with low 
achieving, high achieving, incomes, students--however you mix 
them--the next logical step, it would seem to me, is not only 
to be sharing that information and the ability of teachers to 
assess how they are doing, but also what other teachers are 
doing, and then hopefully having a principal, an academic 
principal, that is prepared to see how he--how you can then 
share that information.
    Is that, in fact, being done? Because again, it is an 
interesting graph, but if it is then not utilized--and what is 
the ability and the time constraints of others on utilizing 
that data to the benefit of the--of those teachers and, 
clearly, of the students, if you could transfer those talents 
across the students that they are responsible for?
    Ms. Hartley. That is a great question. It is being done. It 
is being done in my school district. Each grade level and 
department, grades kindergarten through 12, are--meet regularly 
to write what we call action plans on a yearly basis, and those 
action plans are based on data.
    Action plans, while they are written as a grade level or as 
a department, are largely based on value-added scores that we 
have seen.
    So those are real graphs that Teacher A and Teacher B 
really looked at in the fall of this school year and really had 
some conversations about their instructional practices, their 
assessment techniques, and in some ways the grouping of 
students, how we place students in specific classes, how we--
you know, how do we group students.
    And some decisions were made based on those graphs, and we 
are hoping that the result of that, then, will be that the 
strengths that Teacher A brought to the table and the strengths 
that Teacher B brought to the table will become both of their 
strengths.
    Chairman Miller. If I can just add to that, and then I am 
going to--I am going to go to Mr. Kitchens and Mr. Wenning, the 
question also, then--how is that tool not just the 
collaboration between those teachers but in terms of further 
professional development--how is that information used?
    Yes.
    Ms. Hartley. Okay.
    Chairman Miller. Just quickly you, and then----
    Ms. Hartley. Okay. As a building or a district leader, you 
would definitely want to know that information. And as the 
instructional leader of a building, the principal's 
responsibility is to ensure the best education possible for 
every child in that building.
    While it is not necessarily being done, I would like to see 
individual professional development efforts be made to teachers 
based on some of the information that we have had there.
    For example, if, you know, Teacher A was not necessarily 
making the growth--their low and high achieving students were 
making an average year's worth of growth, which is great, so 
Teacher A should really be focusing on professional development 
that will target some of their higher achieving students.
    And I know for a fact that Teacher A is actually working 
with a gifted specialist this year on what she can do in her 
classroom to engage those students and bring out the growth 
measures that they would like to see from those students.
    Chairman Miller. Thank you.
    Mr. Kitchens?
    Mr. Kitchens. Sure. One of the things that we like to do 
with our network is create professional learning communities in 
our district. And that is to say how would we unite all of the 
fifth grade teachers of the district so that they could share 
knowledge of how well their children were performing as a group 
district-wide, or how well they were performing in a site.
    So in every school site of our district, we have organized 
our teachers into professional learning communities. And we 
have instructional leaders in the schools.
    And I am very proud to tell you, you know, we pay our 
teachers extra duty to observe as leaders in the professional 
learning community, and--much like we pay our coaches for 
athletic extra duties, and it is very important to us to 
establish dialogue, because collaboration is the key.
    And using the data and knowing and understanding where our 
students need assistance is our number one priority in 
establishing that professional learning community within the 
school district and within the school sites to focus on the 
areas that we----
    Chairman Miller. But does the data allow you to segment 
those learning communities so, again----
    Mr. Kitchens. Yes.
    Chairman Miller [continuing]. If the teacher is doing well 
in reading--assuming they have multiple responsibilities----
    Mr. Kitchens. That is right.
    Chairman Miller [continuing]. If they are doing well in 
reading, you can segment them because of the data to work with 
a group of math----
    Mr. Kitchens. Yes.
    Chairman Miller [continuing]. Instructors.
    Mr. Kitchens. Yes, absolutely, and we see that as a key 
and--to foster that communication and action plan. We ask each 
school and site to foster or develop an action plan related to 
the data, and that action plan is the business of the PLC.
    Chairman Miller. Thank you.
    Mr. Wenning?
    Mr. Wenning. Thank you, Mr. Chairman. And the question cuts 
to the heart of the purpose of this data, and that is to 
connect student results to specific instructional resources for 
that student, for those educators, and professional development 
for them.
    In Colorado we have a very large state, very expansive with 
a lot of rural districts, and one of the keys is allowing that 
kind of collaboration among educators about results and 
instructional resources to happen state-wide so that our 
educators connected--that are in our rural areas have access to 
our educators that are in our urban areas, and that the 
instructional resources are actually shared across the state 
because of this information we have at the student level that 
is available only to educators with a right to it.
    But then at a broader level, just connecting strengths or 
weaknesses in students more broadly to specific strategies, to 
professional development paths, and allowing collaboration 
through our new tools across the state is a real key attribute 
of this longitudinal data.
    Chairman Miller. Thank you.
    Mr. Kline?
    Mr. Kline. Thank you, Mr. Chairman.
    And again, thanks to the witnesses. I apologize for being 
absent for a bit. It is the crazy way we do business here, 
where we scoot back and forth between different committee 
hearings.
    I will confess that I captured some of the testimony via 
screen. It is another magical piece of technology and very 
useful.
    I had a meeting with about 20 school superintendents in my 
district just during the Easter break, talking about No Child 
Left Behind, and Elementary and Secondary Act reauthorization, 
and Race to the Top, and blueprints, and all of those things, a 
wonderful, wonderful round-table discussion.
    And one of the things that the superintendents did express 
was it would be great if we had data and a common system so 
that we could share this information, and we could track 
student progress, teacher performance and all of those things 
that we have been talking about.
    I say that just to emphasize that I am really keenly aware 
of the value and the importance of this kind of data. But as I 
said in my opening statement, I am very, very concerned about 
the potential abuse of this data. So I am going to go to 
Professor Reidenberg, if I could.
    I did listen to your testimony, and you were citing some 
pretty scary things, frankly, and your example of the justice 
system seals a minor's record and it becomes invisible to 
everybody, but potentially in a student education database that 
misconduct as a student would be available forever--so I am, if 
anything, even more alarmed after seeing the results of the 
Fordham study and your testimony.
    I was struck by some of the information that seems to be 
captured in these databases. For example, the birth weight of a 
student's baby, the student's birth order, information that 
doesn't seem to have anything to do with a student's progress. 
Do you have any--did your study reveal or do you have any 
opinion on why this information is collected and what it could 
be used for?
    Mr. Reidenberg. We found the information by going through 
the--what are known as the data dictionaries. These are the 
coding books that the local schools will use to report data to 
the states. So we will see different codes for various--
describing data elements.
    And that is where it comes up. We didn't find any 
statements explaining why that--those particular data points 
were collected. I have had some conversations I can answer 
separate from the study. Birth weight of a teenage mother's 
baby is important for a variety of social services, health 
services, for the baby and often the mother that, in some 
states, they believe that is important to be provided as part 
of the educational package so that that mother can succeed in 
school.
    I think what that reflects, though, is it is a mission 
creep. It is using the educational record database for lots of 
uses beyond the straight educational tracking system that one 
would usually associate it with. It also tends to be a surprise 
that they are collecting that.
    New Jersey, my state, collects information--asks schools to 
report who the students' health insurance carrier is. They want 
to know certain medical test results as part of the state 
database on an identifiable basis.
    Mr. Kline. Mr. Wenning, is Colorado collecting that sort of 
information? Is that in the database, the student's child's 
birth weight, and order of birth, and financial status, income 
of the parents? Is that in your database?
    Mr. Wenning. Thank you, Mr. Chairman. No, that is not in 
our educational data warehouse.
    Mr. Kline. Anywhere.
    Mr. Wenning. Not in education. I don't know----
    Mr. Kline. No, no, I am talking about in----
    Mr. Wenning. But in our educational data warehouse, no, we 
don't have information on birth weight and, really, everything 
we collect has been specified in statute or rule, and it is--
the concerns raised are important.
    But no, the most important thing is we know what the data 
is going to be used for, and there is actually a use case for 
it. There is a major shift going on between state agencies 
moving towards compliance entities to entities that are trying 
to provide service and support to the field. And I think we are 
catching up with that at this point.
    Some of this data may very well have been collected for old 
purposes that are no longer relevant. But no, not in Colorado. 
We don't collect information on birth weight and put that in 
our state education data warehouse.
    Mr. Kline. I am heartened. That is good. Thank you.
    Again, Professor Reidenberg, it looks like the way some of 
this data is collected and used--and clearly, it does seem to 
me that there is an intent here to share student data with 
post-secondary education, and it seems that that might have 
some value.
    But it also looks like some of this may be just flatly in 
violation of the law, the--of FERPA. Did you address that at 
all? I missed that in your testimony. Are there instances here 
where some states are just clearly violating the law?
    Mr. Reidenberg. I addressed it more in my written 
statement, but the answer to that is yes. We found in our 
reviews of the state programs that in instances where states, 
for example, did not have purpose limitations on the data, in 
my judgment it is a violation of FERPA for the local school 
district to give the state identifiable data.
    The school district is permitted to give the state 
educational authorities identifiable data for audit and 
evaluation purposes. Unless there is some restriction, the 
state can use that data for other reasons. The local school 
district isn't permitted to give it to the state.
    We found cases we obtained through Freedom of Information 
Act requests--copies of vendor agreements between state 
departments of education and their third-party vendors doing 
the data processing, and we found agreements such as the one in 
New Jersey that is not under the control of the department of 
education. That is a violation of FERPA.
    We found in most instances, the vendor agreements were 
silent or said very little about privacy and how they were 
going to be treating the data. I think there are--was evidence 
that some of those agreements were not in compliance with 
FERPA.
    Mr. Kline. Okay.
    Thank you, Mr. Chairman. It seems to me as we go forward 
with this, we really are going to have to pay attention to how 
the statute comes out and be mindful. It is, frankly, alarming 
to me that some of that information is out there and too easily 
accessible.
    And I yield back.
    Chairman Miller. Thank you.
    Mr. Scott?
    Mr. Scott. Thank you. Excuse me. Thank you, Mr. Chairman.
    Mr. Reidenberg, the information that is gathered on 
students--is the information gathered in such a way that the 
data conforms across state and--across the state and across the 
nation so that you can compare what is going on with one data 
set in Virginia and one in California?
    Mr. Reidenberg. What we focused on were the particular data 
elements that were being collected, as opposed to, for example, 
looking at is this type of school across state lines matching. 
So I won't speak to that.
    What I will speak----
    Mr. Scott. I mean, is the data in conformity so that the 
data in Virginia is the same data that is collected in 
California?
    Mr. Reidenberg. It depends. Some of the states--there are 
groups of states that are using the same data protocols, so 
the--the SIF organization has one common data dictionary. So if 
the state is using the same data dictionary, the answer to that 
is yes, they are using the same codes to report the same kinds 
of information.
    Mr. Scott. Now, one of the data points involves students 
who do not take the test. It includes dropouts. This is 
student-specific. One of the problems we have had with counting 
dropouts is actually counting them, and there are different 
mathematical formulas.
    If you have student-specific data, will the dropout 
calculation be easy to ascertain?
    Mr. Reidenberg. Probably much easier than today, but what 
we looked at was not just the state reporting--the local 
district reporting that a student has dropped out, but their 
reporting the particular reason that a student has dropped out.
    So some of the reasons may be--and I am looking--these are 
the disciplinary codes. The actual specific disciplinary codes 
will report criminal damage to property, misappropriation with 
violence to the person, possessed a pocket knife with a blade 
of less than two-and-a-half inches. I mean, that is the kind of 
detail that is being reported to the----
    Mr. Scott. And so you could actually show that somebody 
subjected to a simple-minded zero tolerance ended up dropping 
out and on an aggregate basis some of these policies can become 
counterproductive, so the reason can be extremely helpful.
    Will there be information like an uptick in absences or 
drop in grade where you can show a student all of a sudden got 
into some trouble and might need intervention? Will that 
information be available?
    Mr. Reidenberg. It could be. It would depend on the nature 
of the trouble the student got into and whether it triggers one 
of the reporting requirements. We were not----
    Mr. Scott. Would the school have that information?
    Mr. Reidenberg. I am sorry?
    Mr. Scott. Would the school have that information?
    Ms. Hartley, if a school had information that a student--
student's grades dropped or has significant increase in 
absences, is that information that would be useful to the 
teacher?
    Ms. Hartley. Oh, absolutely. You know, as a classroom 
teacher, I can tell you there is a direct correlation between 
student attendance and student achievement.
    Mr. Scott. Okay.
    Ms. Hartley. Students that are there on a consistent basis 
do better. When they are not there, it is a very difficult 
process to catch them up on instruction they have missed, fill 
in assessment pieces and----
    Mr. Scott. Now, you showed that the data can be aimed at--
per teacher and the different assessments for the teacher. One 
of the problems--and I know in tennis, half your skill in 
doubles is picking your partner.
    You want to avoid a situation where the teacher starts 
picking students and a teacher may be unwilling to take on a 
slower student because it is going to mess up the average.
    Can this be done in such a way that you can not discourage 
the--a teacher from going across the hall and saying, ``Well, 
let me try young Johnny, you are not having much success with 
him?''
    Ms. Hartley. Gosh, I don't work in a district where 
teachers are allowed to choose students. I mean, that is 
something that is done at the administrative level. I can't 
speak to how it is done in other districts.
    What I can say is that the exciting thing about value-added 
data and actually measuring a student's growth is that you--
teachers no longer necessarily want to avoid those lower 
achieving students. If we are going to be looking at how we 
have grown students, as opposed to whether or not they pass or 
test--pass or fail a state test--those low achieving students 
have a much lower likelihood of passing the test.
    If we can show growth with those students and, you know, 
feel good about that and be recognized for that growth, as 
opposed to whether or not they passed the state test, I think 
as a teacher you are more motivated to take on the task of 
working with those students.
    Mr. Scott. Now, Mr. Reidenberg, is the data on the state 
level--a lot of it can be valuable on an aggregate basis 
without personalization.
    For example, if pregnant teens are dropping out, nothing is 
being done, or if a lot of low-weight babies are not doing well 
because you missed an opportunity for early intervention 
because you didn't take advantage of that, can--how can we make 
sure that we make best use on an aggregate state-wide basis of 
the information without violating individual privacy?
    Mr. Reidenberg. That is a great question. That is exactly 
what I was referring to when I said that we aren't challenging 
that this information can be very important and used for very 
legitimate reasons.
    The issue is really who needs to know the identity of the 
student and, you know, why does the state need to know, for 
example, that Johnny or Sally dropped out of school for 
religious reasons. That is one of the codings that states 
report on.
    The issue there is how do you structure the technical 
architecture so that the----
    Mr. Scott. You mean you might----
    Mr. Reidenberg [continuing]. States get cohorts----
    Mr. Scott. Wait a minute. You might not need that 
particular student, but you might be interested in a lot of----
    Mr. Reidenberg. In the cohort. You want to know what is 
happening with the cohort. So it is certainly--I can easily 
see--and the commissioner, I am sure, can speak to this, but 
the cohort information the state needs to know, but does the 
state need to know that it is Johnny or Sally in this 
particular district who had this particular problem?
    I think if the state needs to know it, then the state needs 
to be able to publicly justify it through a rule-making 
proceeding or some kind of enabling statute so that the public 
can decide if that is really--or the public can make an 
assessment if the government is accountable.
    Mr. Scott. You look to me like you----
    Mr. Wenning. Thank you, Mr. Chairman. Appreciate that.
    Chairman Miller. And then we will go to Mr. Roe, so just 
quickly.
    Mr. Wenning. This issue of should the state have it, should 
the state know it, gets down to an issue, again, of what 
service do we need to provide to our schools and districts as a 
state.
    And we are all familiar with our federal system. We have 
got a complex one. I have 180 school districts, ranging from 
75,000 students to 25 students. All of them have the same legal 
expectations from all of you here.
    If every district were to keep its own data warehouse, we 
would have many without them at all. There are basic 
efficiencies for the state to manage a state-wide data 
warehouse. Role-based access is essential. FERPA is clear. 
Those that have a right to the information should have the 
data.
    But it is much more effective and, in fact, much more 
secure for the state to do this effectively at the state level 
and then provide access to our districts and schools, rather 
than having, in our state, 180 data warehouses with 180 privacy 
processes.
    And this is simply a matter of effectiveness and efficiency 
in the state doing this work. At the same time, states need 
major investments to manage this data more responsibly. And I 
think that has been pointed out very clearly. And it is a very 
important issue.
    There ought to be government--we have a government data 
advisory board that manages how we govern this and provide 
access to information. We have an education data advisory board 
that reviews every data collection and makes recommendations to 
the legislature or the state board to eliminate them. Those are 
critical safeguards.
    But state management of this information is essential if we 
want to have the effectiveness that we are looking for in 
education, and we have that tension, basically, to grapple 
with.
    Chairman Miller. Thank you.
    Mr. Roe?
    Mr. Roe. Thank you, Mr. Chairman.
    And first, just a question toward the chair for 
information. With 41 states having this data collection--we ran 
across it in electronic medical records. You have one type of 
system here, one type of system here. None of the systems talk 
to each other. It is terribly expensive to do that.
    Do we have in our bill, the stimulus package--have we 
dedicated money so that a state can go in at a very low cost 
and get a generic system to get the data we think they need? Is 
that available?
    Chairman Miller. I think Mr. Wenning can answer that as an 
example, and then perhaps I can elaborate.
    Mr. Wenning. Thank you, Mr. Chairman. Not yet. Most of our 
collections are required by the federal government, and there 
is a data dictionary and entities like the Data Quality 
Campaign have been incredibly helpful in helping us get to 
exactly that vision. But right now, we have multiple disparate 
systems in our state----
    Mr. Roe. But you have had to go--or you have had to--right, 
and that is incredibly inefficient. And we have seen it with 
DOD and V.A. where they spent $10 billion and can't talk to 
each other.
    Mr. Wenning. Right.
    Mr. Roe. And----
    Chairman Miller. Well, but, you know, I think, obviously, 
we are--you know, we come along and--Mr. Kitchens, go ahead. 
Let's have people with experience speak before those of us with 
an opinion speak.
    Mr. Kitchens. In our district, we use 12 disparate data 
software programs built by different vendors, and it is a 
hugely expensive issue. But there is a group called the School 
of Interoperability Framework Association that has set a lot of 
standards--not all of them--for data translation between 
disparate systems.
    And one of the things that I will tell you that we--3 years 
I thought I am ready to distribute data to parents. For 3 
years, ladies and gentlemen of the committee, we felt we were 
ready. And then there would be another thing come up and, ``Oh, 
my gosh, I can't distribute this data because I have got a 
privacy issue with this because I don't know how many families 
live in one residence.''
    And there is an economic unit--there are four economic 
units over here in this one address, and I didn't take that 
into account. And my goodness, I cannot distribute this data 
based on address. I can't distribute this data based on 
something else.
    There has to be business rules in place, and there have to 
be very serious business rules. It took us 3 years before we 
finally said we have family information management business 
processes in place that we know that we can allow our parents 
access, and they will see their data on their children, and 
that data only.
    And we even have a failsafe in the system that if the 
status of a family changes--address, let's say one student 
leaves out of three in a family, there is a divorce, there is 
something else happening--then access to records is immediately 
suspended. That is a business rule. Don't let it go on. Stop 
and resolve it.
    Those kind of business rules have to be in place at the 
district level, site level, to protect the privacy----
    Mr. Roe. I guess what I--and not to interrupt, but my time 
is limited, but wouldn't it be simpler if we created--and much 
less expensive--you have obviously gone to tremendous--at your 
own expense, Mr. Kitchens, in Oklahoma to do that.
    Just to make a point, I think we need----
    Chairman Miller. That is a very important point. I think 
the purpose of the grants to the states is that the states will 
look across the state of California or Colorado and decide that 
with the mobility of this population now that you can't have 
systems that don't talk to one another, can't----
    Mr. Roe. Exactly. And what we do, Mr. Chairman, is we 
create systems that don't talk, and then we create another 
whole business in between to make them talk to each other. I 
mean, that is--I have seen that in an electronic medical record 
it happens all the time. One system--anyway. Move on.
    Ms. Hartley, thank you for your comments. I think, 
obviously, data is important. I have used data my entire life 
to treat patients. You obviously use data to evaluate students 
and performance of your teachers.
    And I think I could not agree more--without information you 
can't make any meaningful change. I think the problem that I 
have is certainly how this data is managed. Is there bias 
involved in the data?
    I will give you an example. Think about the--in ``The Blind 
Side,'' this young fellow who is picked up off the street with 
a supposedly 60 I.Q., and if look--if someone had looked at 
that data and said, ``Well, he can't be taught.'' Well, it 
turns out he is a college graduate and did very well.
    And so I worry about data creating bias, too. And math is a 
little different. Math is an absolute, but not necessarily so 
with other things.
    And just a comment from you all--I would like to know a 
couple things. One, a comment was made--is how do you determine 
the same starting date for the child. How do you know that a 
child is on the same level when you made that? Because one kid 
may be here and one here. How do you know that? How do you know 
they are at the same level of learning, through testing, or----
    Ms. Hartley. Are you talking about----
    Mr. Roe. When you measured performance.
    Ms. Hartley. Okay.
    Mr. Roe. You said we started at the same level. How do you 
know that?
    Ms. Hartley. Well, not all students start at the same 
level, and that is what----
    Mr. Roe. Right.
    Ms. Hartley [continuing]. Value-added does. It allows us to 
say, ``Okay, you know, Johnny has''--in Ohio, 400 is passing on 
the state test. So let's say that Johnny has a predicted score 
of a 452. Johnny is a very bright student. He is predicted to 
not only pass but do very well on the test.
    Sally has a predicted score of a 385. Sally has not 
performed well on tests in the past. Students like Sally have 
not performed on the subsequent tests. Therefore, Sally is not 
predicted to pass the state test.
    What value-added does, then, is says okay, after Sally and 
Johnny have taken the test in that grade level, you know, 
Sally's predicted score was a 385, and Sally's score is a 395, 
which is still not passing, it is still not at that 400 mark, 
but Sally has made growth. And that is what----
    Mr. Roe. I agree.
    Ms. Hartley [continuing]. We need to look at. And your 
reference to the movie ``The Blind Side''--you know, we have 
students like that. I have students like that in my classroom 
right now who are, you know, traditionally low-achieving 
students.
    And it is not necessarily my goal that they pass the state 
test that year, but it is certainly my goal to do everything in 
my power to, in the year that I have them, raise their level of 
achievement so that maybe after two or 3 or 4 years of that 
level of growth they are able to achieve that.
    Mr. Roe. I believe you would achieve that.
    I want to ask one question and then yield back my time, and 
they can--if they have time later. With all the data we have 
now, why do you think the U.S. system is failing?
    We have got all this information. Why are we failing?
    Chairman Miller. Mr. Wenning?
    Mr. Wenning. Thank you, Mr. Chairman. Very quickly. You 
know, data, data, everywhere, right? Data rich, information 
poor. The key is we have not put this into a useful format for 
educators so that it is information, and so that we can build 
knowledge.
    So this issue of data to information to knowledge is the 
key sequence. We collect tons of data. It is useless because we 
think that crunching it is useful. Well, no. Educators need 
information in context so they can act on it.
    And that is why we are not getting any breakthrough results 
with the data we have currently.
    Mr. Roe. Thank you, Mr. Chairman.
    Chairman Miller. Mr. Polis?
    Mr. Polis. Thank you, Mr. Chairman.
    I thank the panel for their really important testimonie on 
this topic as we go into the ESEA reauthorization process. The 
data and the data systems are one of the most important 
benefits, I think, that can come out of our federal education 
reform.
    Mr. Wenning, I want to congratulate you and Commissioner 
Jones in Colorado and the rest of your colleagues for your 
innovative efforts to create a accountability system that 
focuses on all students reaching college and career readiness 
by high school graduation.
    I think the model that Colorado has come up with provides 
something that we can learn from in this ESEA process, and I 
applaud your hard work on developing the Colorado Growth Model.
    My first question is regarding the potential of new 
technology to foster the widespread understanding of 
performance. And of course, the more people can understand 
performance--families, parents, academics--it can promote new 
and broad public conversation and motivate public pressure for 
sustained reform.
    Specifically, the new Web-based tools can provide a 
critical way to empower parents through giving them information 
about school choice. However, the digital divide is a major 
obstacle, especially in low-income communities and some of the 
communities most in need of the very empowerment that these 
tools are attempting to provide.
    Frequently, parents have limited or no Internet access or 
aren't aware of where or how to find that useful information, 
or have a language barrier or a literacy barrier to acquiring 
that information.
    Can you discuss what additional policies and strategies are 
necessary to ensure that the information actually reaches and 
empowers parents, particularly parents from an at-risk 
background?
    Mr. Wenning. Thank you. Thank you, Mr. Polis. Incredibly 
important question. And I would say there are really two 
issues. One--and this is where the federal government comes 
in--we have got to close the digital divide and make sure that 
we have broadband throughout the entire nation.
    And as you know, we still have parts of our state that 
don't have access to high-speed Internet. And that inability is 
a major challenge. And of course, we have the technology to 
overcome that if we have the right investment into that. That 
is one step. That opens up the pipe, but it doesn't bring about 
the understanding.
    One of the things that we are doing is that anything we 
provide on the Web has got to be available in a print format. 
We have got to organize it in brochures. We have got to do 
cable TV. We have got to make sure it is in multiple languages.
    And basically, the role--and this is an incredibly 
important role for the state, because we have the capacity to 
reach an entire state, and we have to basically be very 
deliberate in working with our parent groups, our educators and 
making sure that we have community forums. And those are all 
things that require investment and time.
    States need to get into that role and recognize their most 
important function is really to build the understanding of a 
child's performance to their parents so they can engage 
constructively in schools, and that is going to take a--really, 
a multilayered approach.
    But of course, the federal government can really be helpful 
on the broadband issue, so that we do close that digital 
divide.
    Mr. Polis. I applaud the emphasis on reaching families. 
Ironically, the powerful and compelling information that you 
could provide if it was provided only to the information elite 
and parents who already have a lot of advantages could actually 
be used to perpetuate some of the learning gaps that have--that 
exist by empowering parents on the positive side of that divide 
to go to the schools or attend schools that are better.
    I understand that Colorado is taking an open source 
approach to SchoolView and the Colorado Growth Model. Can you 
briefly just describe why that is important?
    Mr. Wenning. Sure. Thank you. One, you know, think about 
the iPhone and the apps that are emerging. We found that by 
creating an open source data visualization platform it has 
created a lot of room for for-profit and non-profit vendors to 
work with us.
    But what we are trying to do is build collaboration among 
states to get to a common understanding of performance. You 
know, for those of you that are in the private sector, we can 
interpret a balance sheet in the same way from company to 
company. In education, we have no ability to do that.
    In fact, we constantly have debates about evidence rather 
than how we are actually going to do better. And so what we are 
trying to do is measure student progress in a common way to 
understand the productivity of our education system, be able to 
do return-on-investment analysis, do that with other states 
like Massachusetts, and begin understanding really what works, 
rather than just having debates about it.
    And by having an open source approach, we found multiple 
states now that are joining our effort to understand student 
progress in the same way, how much growth a child is making, 
and whether it is good enough for them to catch up, to keep up, 
or to move up to higher levels of performance.
    And the open source aspect of this is--means that we are 
really leveraging public and private investment and makes it--
makes the barriers to entry really low for other states----
    Mr. Polis. Briefly, by open source, you mean that 
academics, amateur psychometricians and hackers can play around 
with this information and create new ways of looking at it on 
their own, and if they catch on, they catch on, and if they 
don't, they don't?
    Mr. Wenning. Yes. Now, that doesn't mean they can play 
around with confidential student information.
    But the visual tools that we are creating are essentially 
trying to create an open market for application development 
that is useful for teachers and parents and students. And that 
is really what we are trying to motivate nationally through our 
work.
    Mr. Polis. Yes. Let me clarify that the word hackers has 
several definitions, so the one I was alluding to is people who 
like to code, not people who like to crack privacy firewalls.
    I yield back.
    Chairman Miller. Mr. Cassidy?
    Mr. Cassidy. Mr. Reidenberg, Mr. Wenning, it seems 
metaphorical that you are on either end of the spectrum, 
because I really get different messages from the two of you.
    I have a sense that although everybody is concerned about 
privacy, Mr. Wenning, you see the potential in regression 
analysis, put in a bunch of variables, some of which may seen 
unrelated, do your regression analysis and come out with an R 
squared which indicates that, ``Wow, this is significant. We 
never thought it would be.''
    Mr. Reidenberg, I have the sense that you are a little bit 
more kind of, ``Wow, this is what we need, and this is why we 
need it,'' and less exploring the possibilities in fear of 
sacrificing privacy.
    That said, let me ask specific questions of you both, and 
then I will ask you to comment upon my premise there.
    Mr. Reidenberg, I am struck that some of the things that 
you point out as being kind of crazy may actually have a 
rationale.
    So when New Jersey contracts with Montana to take their 
Medicaid-specific data to an out-of-state database, that may be 
because the Montana database has experience with HIPAA 
regulations and they are segregating that data because there is 
a whole 'nother kind of legal set of rules for that database 
activity. Is that a fair statement?
    Mr. Reidenberg. No, I mean, New Jersey is contracting with 
a private vendor to handle all of New Jersey's database. It is 
not----
    Mr. Cassidy. Well, that is what I saw in your testimony, 
that it was specific for Medicaid information.
    Mr. Reidenberg. I am sorry?
    Mr. Cassidy. I thought I saw in your testimony that it 
was----
    Mr. Reidenberg. No, what----
    Mr. Cassidy [continuing]. Specific for Medicaid 
information.
    Mr. Reidenberg. What you saw was the way New Jersey has 
structured its system, it is using--it is paying for the 
database on the general education student population using 
money coming from the SEMI and MAC programs for Medicaid, which 
are funds designed to reimburse states for health costs 
associated with special education children in their classroom.
    Mr. Cassidy. I see, so they are broadening that application 
to include other educational data even though in the spirit of 
the law it would be for medical aspects.
    Mr. Reidenberg. In that case, New Jersey is diverting 
Medicaid money.
    Mr. Cassidy. Got you.
    Mr. Reidenberg. I personally think it is Medicaid fraud.
    Mr. Cassidy. Wait till the new health care bill hits. But 
that is another story.
    That said, some of this seems like it could be dealt with--
it seems like you have a specific issue with patients--excuse 
me, student-specific indicators, so if you are using Social 
Security, clearly you just want a unique identifier.
    And you mentioned a dual architecture. I assume that you 
want one database for research purposes and another database 
for the most appropriate person to be able to see student-
specific data, your dual architecture. Can you----
    Mr. Reidenberg. Look, it is not--no, the dual architecture 
structure is one in which the state officials are being 
structurally separated from the identity of individual 
students--from identifying information for individual students.
    Mr. Cassidy. Now, let me ask you--Mr. Wenning's comment, 
how you have 180 school districts--if a kid commits a felony 
and is expelled and goes from one end of the state to the 
other, how is that data transferred? How would you see ideally 
that data transferred?
    Because under Mr. Wenning's--I could see that the data will 
be transferred because you have a state-wide database in which, 
``Wow, the kid is expelled. Why is the child expelled? He 
pulled a gun on a teacher.''
    Mr. Reidenberg. Well, that information has always been 
transferred. The incoming school will--at least historically, 
from my experience as a board member, if we were receiving a 
child from out of district, we have the child's records from 
the former district transferred to us.
    That can be done today by electronic data interchange as 
opposed to paper files, as it was in the old days. But that 
information--you would want to get it directly from the school 
system.
    In Colorado's example, the state is centralizing the data 
warehousing function. It may make sense in Colorado, not 
necessarily in other states. When you centralize the data, you 
magnify the risks of----
    Mr. Cassidy. So then your----
    Mr. Reidenberg [continuing]. Privacy----
    Mr. Cassidy. Just because I am limited on time, so your 
point isn't so much that you are absolutely against 
centralizing data, it is just that you would want stronger 
safeguards to avoid the spillage that you spoke of in 
Nashville, et cetera.
    Mr. Reidenberg. That is correct. It is not the 
centralization. Again, I am not--this data, as we have heard, 
is very valuable for determining school performance quality 
measures.
    Mr. Cassidy. Now, one more thing, and then I will go to 
you, Mr. Wenning.
    When someone decides to leave because of religious reasons, 
for example, I could imagine that you might want to do a 
specific initiative to reassure members of that religious 
community that know the school is a safe place teaching your 
values.
    I guess--more information--not less, because it seems like 
I am a physician, the more data you have, the more likely you 
see relationships you never thought could exist. So what are 
your thoughts on that?
    Mr. Reidenberg. So why should the state have the list of 
children, specific children, of a particular religion that are 
leaving school? The fact that----
    Mr. Cassidy. No, no, no----
    Mr. Reidenberg [continuing]. You have a group, yes, but----
    Mr. Cassidy [continuing]. No, no, no, not of the unique 
identifier, but rather--again, you mentioned a cohort. At some 
point, a cohort becomes an individual, and so you still want 
someone to say, ``Wow, we have a uptick here on a regression 
analysis that we have lost a bunch of kids because of X.''
    Mr. Reidenberg. Yes, that can be valuable. But again, I 
think that is a decision that needs to be made at a public 
public-policy level rather than a technical behind closed doors 
which, from our study, seemed to be the case.
    Mr. Cassidy. I am just out of time, almost.
    Mr. Wenning, your comments on all that?
    Mr. Wenning. Thank you. You know, Mr. Reidenberg's 
observations are extremely well founded. I think what I 
disagree with, perhaps, are the conclusions.
    Strong security safeguards are absolutely essential, and 
the examples he cited are unfortunate and unconscionable. It is 
essential that states do a better job with privacy.
    My argument, though, would be that the likelihood of 
building those types of safeguards in are going to be much more 
likely done at the state level than in our 180 school districts 
that have very limited capacity to do so. They are still 
required to capture this information.
    The focus on educational accountability and performance is 
an imperative. We need to do much better for our children. And 
this information is critical to bringing that about. But I do 
not want in any way to diminish the concern over student 
privacy and the need to have very solid safeguards.
    And I think his analysis is spot on in terms of the kinds 
of recommendations that he has got, but I don't want to make--I 
want to make sure we are not throwing the baby out with the 
bath water on state data systems. They have to be more secure. 
They are incredibly useful.
    Chairman Miller. Congresswoman Chu?
    Mr. Cassidy. Thank you.
    Ms. Chu. Thank you, Mr. Chair.
    This question is for Mr. Wenning and/or Mrs. Hartley, and 
it--I actually have two questions pertaining to distinguishing 
between the growth or the value-added assessment models.
    And do you distinguish between them? And one might be more 
appropriate for a particular school district. My concern is 
that it seems that since the value-added model relies on 
aggregate data that it might be more appropriate for homogenous 
student populations.
    And I am wondering whether that model is as well suited to 
school districts with highly diverse populations, say an urban 
district where you have a large number of suburban students and 
a very, very large number of poor inner-city school students 
with many ESL students.
    Mr. Wenning. Thank you. I will take that. So yes, these 
terms are batted around a lot, and value-added models and 
growth models are different things. The choice of them is 
really a policy issue in terms of what questions we are trying 
to answer. They are both applicable to any type of school or 
student population.
    And the main distinction is one of attribution and where 
the attribution should be made. So the value-added model that 
Ohio uses, that Tennessee uses, is designed specifically to 
attribute a quantity of student progress to either a school or 
to a teacher, so there is a calculation of a teacher effect. 
That is modeled within a statistical model. And so for example, 
how persistent is a teacher effect over time? There is an 
assumption that goes in there.
    A growth model like the Colorado Growth Model does not make 
that attribution. Instead, we ask the educator or the user to 
make the attribution.
    And so for example, when we use this to look at educator 
effectiveness, the question we ask is what are the growth rates 
of students associated with this teacher, and we like to look 
at that over three longitudinal cohorts and then, as a 
principal evaluating that teacher, they would have that 
information.
    A value-added model would provide an effect coefficient for 
that teacher that would say this much of the students' learning 
was attributed to this teacher. And essentially, the 
attribution is made in the statistical model. We choose to have 
that attribution rest with the user.
    And the reason we do that is because we want to make sure 
that the quantity is useful to a teacher and a parent and a 
student. And quite frankly, I find it very difficult to explain 
an effect coefficient to mom and dad.
    So there is a level of precision that is lost with a growth 
model because of where the attribution lies, but we find that 
the body of evidence, particularly using the data 
visualizations we showed, we are able to move up and down from 
a single child to an entire state with ease using the same 
language throughout, a very straightforward language.
    Value-added models are incredibly useful for research and 
evaluation purposes, and so the choice of them really depends 
on the questions the school or district or state is interested 
in answering.
    Both have a very important function, but they represent two 
approaches that are not at all incompatible with one another.
    Ms. Chu. Could you use both simultaneously?
    Mr. Wenning. Sure, absolutely. And again, depending on--
what question you want to answer and what--with what level of 
precision would dictate the kind of model you would like to 
use. And both kinds are readily available in the open source 
community and from specific vendors.
    Ms. Chu. And what about my question about which would be 
more appropriate for a large urban school district with a 
widely variable population?
    Mr. Wenning. Both are equally appropriate. Again, it just 
depends on what questions one is trying to answer. For example, 
if you want to answer with great precision how well a reading 
program is improving student outcomes, and you want to control 
for a variety of other variables and answer that with the 
precision that a researcher would demand, I strongly recommend 
a value-added model.
    If you wanted to disclose this information so parents could 
make good choices and you want to just sort of democratize all 
the hypotheses, a growth model pushed out would be a great way 
for the public to engage immediately without requiring a 
researcher to answer that question.
    So both are appropriate for a large system. And again, 
whatever questions one wants to answer and with what level of 
precision really dictates the kind of model you would like to 
use.
    Ms. Hartley. I just have one comment to add. As I work with 
groups of teachers, it is very nice to have a growth model that 
does factor out specifics like socioeconomic status, race, all 
of those factors that, unfortunately, in my experience in 
working with teachers, is one of the first things that teachers 
like to point to for failures in students' achievement.
    When you work with groups of teachers and students who are 
failing, rarely do you see a teacher that stands up and says, 
``Wow, that is my fault.'' So one of the first things that we 
point to is, you know, home life, all kinds of factors that a 
growth model completely takes out of the equation.
    And from a professional development standpoint, that is 
extremely important so that teachers are actually looking at 
and understanding that the growth measurement that you are 
looking at is actually what you as a teacher have attributed to 
that child's learning.
    Mr. Wenning. If I could just add, because I will share a 
slightly different perspective, and this is an important one. 
It is why it is important that states be able to make choices. 
We actually firmly disagree with controlling for race or 
socioeconomic status.
    Instead, we have created a growth model that is unbiased 
based on race or socioeconomic status, and we control for one 
thing that we think is the most important gap, where a child 
starts, regardless of their race or socioeconomic status.
    And then we disaggregate those results by race and 
socioeconomic status so we have a common growth measure. What 
we found is that folks can make excuses very quickly about home 
life or about socioeconomic status, so we don't control for it. 
We disaggregate by it. But that was a choice our state made.
    Chairman Miller. I am going to use the prerogative of the 
chair for a second.
    Mr. Kitchens, you started out your testimony talking about 
mobility, what Mr. Wenning just finished saying. I assume the 
questions of mobility, where that student started when they 
entered my classroom is a very important factor in terms of how 
we allocate--how we believe that classroom or that teacher or 
that school is doing.
    If a child came 2 years behind, and I am judged a failure 
because they didn't make that--they didn't meet proficiency at 
the fourth grade or the fifth grade, whatever, that can be 
factored in this data also, as I understand it, and your use of 
it.
    Mr. Kitchens. That is absolutely true, and I believe that--
--
    Chairman Miller. Because this is a major complaint among--
--
    Mr. Kitchens. Yes.
    Chairman Miller [continuing]. You know, highly mobile 
districts where teachers say, ``Wait a minute, you know, the 
raw material came to me in this form.''
    Mr. Kitchens. All of the data that we have--and we hired 
a--we are not a very big school district, but we hired a Ph.D. 
research statistician and, you know, he came in, and I asked 
him to do a study on behalf of the students in the district, 
and to tell us what the top three issues were in our district 
that impeded academic success.
    And he came back with attendance is the number on issue. If 
students attend more than 90 percent of the time, they have a 
much greater chance of being successful academically. And yet I 
will tell you that it troubles us deeply that we don't see 
enough activity at our level, at the state level particularly, 
backing us up to get students in to school, okay?
    The next issue that he said that was extremely important 
was mobility, and the third issue was discipline, and that if 
these--if a child had attended school 90 percent or more of the 
time, if a child had been with the school at least a year 
academically, if the child had no more than three discipline 
issues in a year, that they were almost universally successful 
academically in that sort of----
    And so you know, we really take those issues very 
seriously. And this issue of mobility--I tell you, I think that 
we have to standardize some information, because we have to 
pass that information to people and to stakeholders and to 
parents on behalf of their children.
    I mean, if you look at the parent, the student and the 
teacher, you have to be able to pass information between the 
parent and the student and the teacher. And if you organize 
your systems to do that--you know, I am not talking about 
necessarily at a state-wide level, but at the functional level, 
at the school level--we have to do this.
    And we have to be able to inform the next district because 
in 4 years, sir, 45 percent of my children will be mobile. And 
they will drop out at twice the rate of all of the non-mobile 
students.
    Chairman Miller. Thank you.
    Mr. Kitchens. And they will fail at twice the rate.
    Chairman Miller. Thank you.
    Mrs. McCarthy?
    Mrs. McCarthy. Thank you, Mr. Chairman.
    I thank the panel. It has been really fascinating to look 
at the data. And this is something that a number of us on the 
committee have been thinking about for quite a long time, and I 
thank you for the hearing.
    My colleague Rush Holt has been working on data collection 
and matrix access. He is actually going to be introducing 
today--that I have been working with him on.
    With a lot of the questions that, you know, have been 
coming up--the privacy issue, which I think everybody certainly 
is concerned about--I mean, that is one of the things that we 
are looking at even in the health care debate, is the privacy 
issue.
    But we also know that that information, that data, has to 
get out there. But one of the things that I have been thinking 
about as you have all been talking--when you get the data, and 
you see on one of the graphs that you showed on the screens 
that, all right, here is your--you saw a teacher doing very, 
very well with a certain population, and you saw a teacher that 
was just doing okay, and then looking at the growth of the 
child, student, what--is that over a year's time?
    I mean, when do you start making the corrections? Do we 
lose a year of the time of the child's life? Is it possible 
that in 3 months you are saying, ``You know, something is not 
going on here?'' How do you make that change so we are not 
looking at a year or 2 years or even 3 years?
    Mr. Kitchens, when you say, you know, we have--you know, I 
am sorry to say that a lot of my under served schools in my 
district--there is a big dropout. It is probably 45, 50 
percent. That is unacceptable.
    And I know in the city, New York City, in Brooklyn, they 
have been able to track these kids and they actually bring them 
in to--I am not going to say a precinct, but pretty close to 
it, and they have the teachers there. They are going to make 
sure that these kids continue their education while they go to 
an alternative school so they can get them back into the 
regular school.
    One of the things they said, though--the kids didn't want 
to go to a regular school. They like the alternative school 
because they got more attention.
    So I will go back to my original question now. How long 
does the data come in when you are tracking the teacher and the 
child? And where do you see about that time--you know, what 
has--needs to be moved to help both of them? I will throw that 
open to everybody.
    Mr. Kitchens. I would love to answer that question. I 
fundamentally believe that we have to retool our schools at the 
school site, at the classroom level, to deliver data in near 
real time, that we have to become actively engaged in 
developing formative assistance, that we assess our students on 
a fairly regular basis within the year, that we point out where 
they are having problems, that we establish a common vocabulary 
for what we teach, so that we can articulate between 
institutions and between classrooms and on behalf of the 
students to make it easy to understand a common vocabulary that 
we can apply.
    We have actually received a grant from an institution in 
Oklahoma, a foundation called The Inasmuch Foundation, to do 
that very thing. I think that being able to understand in a 
common way, for parents to understand where their children 
needs help--or need help, in reading comprehension, in word 
attack skills, and that sort of thing, and to make it that 
simple for people and to support teachers as well.
    We need to move data in near real time fashion to whomever, 
to the teacher, to the student, to the parent, move data as 
well--we have to set some standards for what we teach and how 
we teach and articulate those to everybody concerned so that 
everybody understands what is happening with the child.
    Ms. Hartley. I will speak to the graphs that I put up 
there. Those data are available typically in September, so in 
September 2009 we looked at those data. They are based on--
primarily on tests that students took in May of 2009, the 
state--the Ohio Achievement Test that they took.
    And those graphs basically measured the 2009 results of 
students with their predictions, and so their predictions are 
based on their longitudinal test history. We see those once a 
year, and that is unfortunate. If it were an ideal world, I 
would have that data every week so that I can, you know, 
constantly evaluate how I am teaching and the things going on 
in my classroom.
    Unfortunately, you know, the state test is given once a 
year, and with the data system that we use, that is the type--
that is the level of test that is needed to calculate that type 
of growth measurement.
    Mrs. McCarthy. Okay.
    Ms. Hartley. But you are right, there is a definite need 
for more immediate timely information.
    Chairman Miller. All right. Thank you.
    Mr. Wenning. Oh, I am sorry. What Mr. Kitchens described is 
exactly what could be, and the fact that that is not the 
reality in most schools in the United States is probably the 
single biggest reason that we have been flat for so long in 
performance.
    We are holding folks accountable, but we don't give them 
the basic tools and information they need to actually get the 
results we are expecting. And that fundamentally is what this 
longitudinal data is--should be used for, not compliance, but 
rather to provide the kind of support that educators need and 
deserve in real time about their students to engage 
constructively in education.
    Chairman Miller. Thank you.
    Mr. Reidenberg. If I may also just address the longitudinal 
aspect of it, because I think your question was focused on the 
immediate term, how do you bring it into the classroom right 
away. One of the aspects that we observed with these databases 
is they are being set up precisely to archive data over time. 
How long? What happens with the old data?
    For it to be valuable to come up with new curricula, new 
standards, new ways of measuring performance, there needs to be 
a commitment for a extended period of time. We are talking 20 
years. And I think it is an important question that is not 
really being asked.
    Are states--is the federal government--willing to fund for 
20 years the maintenance of these systems? If they are not, if 
the commitment is not there now for doing that, then how will 
the privacy questions be addressed when several years', 5-, 10-
years' worth of data is sitting there, and all of a sudden the 
state decides, ``Oh, that didn't work. It didn't help us answer 
these questions about why the school has been failing, so now 
we are going to stop it.'' But the data is still there.
    Chairman Miller. Mrs. Biggert?
    Mrs. Biggert. Thank you, Mr. Chairman.
    And I am sorry I have been in and out and--so I hope I am 
not asking the same questions.
    But, Mr. Wenning, in your testimony you demonstrated the 
ability to examine the data by subgroups, including students 
with IEPs, and I think and as you know, one of the biggest 
challenges under the former NCLB and now the ESEA--one of the 
biggest challenges is how to measure achievement for special 
needs students.
    And I know that we have--you know, we have heard all the 
stories from some of the teachers about how concerned they were 
having to give the kind of tests that they did to these 
students. And given that your state's data system can measure 
student growth, how do your districts use this data to improve 
instruction for these children? And do you use the IEP?
    Mr. Wenning. We do, and of course, the state assessment is 
one data point for any student, including those with 
disabilities. And so what we do is provide the information on 
student growth rates for students that are on IEPs, and that 
information can then be interpreted by schools and districts to 
understand how well their children are doing based on where 
they began and compare that to others and benchmarks so they 
can understand whether their students with disabilities are 
growing faster or more slowly than the next school next door or 
in any district, and then allow them to benchmark where they 
see the best performance happening.
    That summative assessment that we administer at the end of 
the year is only so useful for these purposes, but we want to 
make sure that any assessment we use--and this is a nice 
addition to the other evidence and learning objectives in a 
child's IEP so it is one part of a body of evidence.
    But importantly, it does allow any educator to understand 
how well their child on an IEP is doing compared to any other 
child on an IEP, controlling for where that child began. So 
again, that initial starting point is the most important aspect 
of this.
    And so it is used to better inform whether their practices 
are actually producing the results they expect.
    Mrs. Biggert. Okay.
    Then, Ms. Hartley, do you have anything to add from a 
classroom perspective to this issue?
    Ms. Hartley. Sure. Interestingly, this year I have a sixth 
grade inclusion math class that I have. About half the students 
in there are on IEPs. And they will take the state test along 
with everyone else.
    And you know, our level of expectation--when I say our, I 
have a special education teacher that co-teaches the class with 
me. We have high hopes for how they will perform on the Ohio 
Achievement Test, but our true expectations is that we make 
positive growth with every single one of those students--that, 
you know, the student who is predicted to score 340, you know, 
realistically could pass on a good day maybe, but if, you know, 
he or she scores a 390, which is still not passing, we have 
made a lot of positive growth with that child. That is going to 
be a success for us.
    And so as you look at some of these policies, that might be 
something to look at when it comes to special needs students. 
Where is it we really need for them to end up? Do we really 
need for them to score that 400 on the state test, or do we 
need for them to show growth?
    Mrs. Biggert. I think that that is one question that I have 
been asking, should we just use the IEPs in that case. But 
then, Mr. Reidenberg, you know, there--you have been talking a 
lot about the significant privacy concerns that you discovered 
in looking at the student data systems across the country.
    And do you think that this would put a kibosh or do you 
think that this--using the IEPs rather than just the testing?
    Mr. Reidenberg. I think including the IEPs on an 
identifiable basis at the level of the state is a risky 
proposition, because there will be a state where there is a 
data leakage. It will happen. And when that happens, I think it 
will alarm significantly the parents of classified children.
    In my district when I was serving on the school board, we 
saw experiences where parents were very reluctant to have their 
children classified, because they didn't want them labeled. And 
we saw instances where parents wanted their children classified 
because they wanted the 504 accommodation for testing.
    And if that kind of data is fed into a permanent record, so 
to speak, I think it will certainly have a distorting effect on 
the goals that the IEPs are designed to achieve and the goals 
of the 504 accommodation in ways that I don't think we can 
anticipate right now.
    Mrs. Biggert. What kind of a breach would cause that 
concern?
    Mr. Reidenberg. All it will take is for a state official to 
lose a laptop that has all the information on IEPs from kids 
throughout the state, or 10,000 kids in a school district.
    In Nashville, when Nashville had its data breach, I can 
check whether Tennessee included--whether students had IEPs. 
But when the data set was put on the Internet without security, 
if it were a state that was recording IEP status in the state-
level database, that would have been out to the world.
    Mrs. Biggert. Thank you.
    Chairman Miller. Ms. Woolsey?
    Ms. Woolsey. Thank you.
    This has been so interesting. Thank you, witnesses. I am 
not going to repeat the questions everybody else asked, so I am 
going to get to--I decided that I was going to ask the 
questions that parents would ask. So I think we need to know--
parents want to know how is my child doing, is my child 
learning, is my child keeping up.
    And they need to be, I believe--parents need to be taught 
and trained how to read the data. I mean, this is just going to 
be a lot of stuff to a lot of parents.
    And there is a lot of parents that I know in my district--
they get a lot of their information from their teachers over 
their computers, so we have to bring in a whole group of 
parents that don't even have computers, if that is going to be 
necessary.
    So how are we going to treat these parents and--so that 
they can be partners in this? I know we are talking about 
finding out what are the better teachers, and of course every 
parent wants their student in the better teacher's class and in 
the better school, but our goal is to make all schools good. 
But can you talk to me about that?
    And another thing. Maybe each one of you could tell me what 
social service data do you consider pertinent so that we can 
actually educate the whole child. I mean, because there is 
information that needs to be taken into account.
    I see, Mr. Kitchens, you got excited to answer this.
    Mr. Kitchens. I think it is extremely important to train 
parents in this day and time, and I think common language 
issues about having it easily understood, what we are trying to 
teach their children, is extremely important.
    I mean, we can get lost in ``educanese''----
    Ms. Woolsey. Yes.
    Mr. Kitchens [continuing]. So to speak. And we need not to 
do that. We need to be very direct and be able to create 
reporting, what I will call parent-friendly, student-friendly, 
teacher-friendly reporting, about what we have taught, how 
successful we have taught it.
    And I think that, you know, when you think about a common 
language, I want you to--I want to give you this thought, that 
really the way we learn, when we learn, it is kind of like in a 
hierarchy, if you kind of go back to the way people learn 
issues when they are in school, how do students learn, in what 
order, in what sequence.
    And there is kind of an order and sequence in a lot of 
ways, not totally, because we learn in differing ways. But 
there is a common language, I think, that can be developed that 
is hierarchical that could--people could follow--people--
parents could follow.
    Ms. Woolsey. Right.
    So, Mr. Wenning, do we think parents care if it is value-
added or growth model?
    Mr. Wenning. No, I don't think----
    Ms. Woolsey. What do they want to know?
    Mr. Wenning. Parents are very clear about what questions 
they want to answer, and you hit them right on the nail--how 
much progress is my child making; is it good enough for them to 
catch up or to keep up if they are already there, and if not, 
what are we going to do about it; and how good is the school at 
serving my child.
    Those questions are of interest to every parent. And we are 
very deliberate in stating that that is the single most 
important customer for this information. And it is why we are 
very deliberate of our language.
    And Mr. Kitchens is exactly right. It has got to be clear. 
It can't be 15,000 districts using different language for their 
parents and every school in the country, and that is why it is 
so important for the state to set the tone as well, so it is 
not just a few districts that are able to do this, but we get 
to a national conversation.
    And of course, that means longitudinal data, and that means 
some risk on privacy. But this is an incredibly important 
leveler for our parents to engage, and we need to be leaders in 
closing this digital divide so that every parent has access to 
this high-quality information that allows them to 
constructively engage in their schools.
    Ms. Woolsey. Ms. Hartley?
    Ms. Hartley. I guess I would like to come at this question 
as a parent. I have a son who is in fifth grade who is a gifted 
student, and my fear for him is always that he is not going to 
be challenged enough.
    Ms. Woolsey. Right.
    Ms. Hartley. And so you know, as a value-added specialist, 
I obviously have a whole wealth of knowledge and can look at 
his information and come at it from that standpoint and support 
his teachers and his learning and help him make the years with 
the growth every year that he needs to make.
    And that is important for those students as well. I think 
sometimes we think about those kids that need to catch up and 
engaging those parents, and those are definitely--all parents 
are important to engage in the conversation.
    From a teacher's standpoint, I have in the past used value-
added reports with parents. They tend to come at it--they are a 
little confused, and I think the confusion comes from the 
culture that they went to school in.
    Education traditionally did not necessarily measure growth. 
We give kids tests and how you score on the test is your 
measure. It is an achievement measure. We didn't necessarily 
measure, you know, this is where you came in to the chapter, 
this is your understanding of this concept now and this was 
your understanding at the end of the chapter.
    We are not necessarily a culture that is used to looking at 
growth measurements in schools, and so I think that that is 
probably an important piece that we need to involve parents in, 
understanding measurement of growth in schools and not just 
achievement scores.
    Chairman Miller. Mrs. Davis?
    Mrs. Davis. Thank you, Mr. Chairman.
    Thank you all for being here, and I certainly hope I didn't 
miss this in being out of the room for a little while. I am 
particularly interested in teacher evaluations.
    And yet I do believe that we have not given teachers enough 
of what they need to be able to make the adjustments in their 
classrooms with the kind of information that they are provided.
    I am wondering--and perhaps this is to you, Mr. Wenning--
what is it that is going on in addition to the data that is 
making it possible for teachers to be able to make those 
adjustments? Is it particular training that they are getting?
    One of the things that we know about some school systems is 
they have a very good strong collaborative model, and I guess 
this goes internationally as well, where teachers mentor one 
another. They talk about their students. They have time to do 
that. They are not just in their classroom, you know, by 
themselves all the time.
    So what is it that you think is really critical that is 
more dynamic so that the data systems actually work for 
teachers in a way that they can make the changes that are 
required to be certain that kids can be more successful?
    Mr. Wenning. That is just an essential question. The keys 
to this are providing that result very quickly, and it has to 
be over time, because actually we are interested in progress, 
not just a snapshot. And that is why the longitudinal aspect is 
so important.
    Immediately, though, that has to be connected to an 
instructional strategy that works, and so that requires linking 
it to a battery of--and a body of instructional strategies that 
might be openly available in the public or might be recommended 
by other educators.
    And the amount of digital information that is emerging now 
that can be connected through social collaboration, which 
teachers are beginning to use--I receive the chairman's tweets 
from this committee.
    I am not sure if you are sending them, but, you know, we 
are all communicating readily now. It is that connection 
between the students' progress over time on multiple bodies of 
evidence to specific instructional strategies, and then 
allowing real-time collaboration both in schools and districts 
and buildings but, more importantly, across school districts, 
perhaps globally.
    One of the things we have done in Colorado--and this is--I 
will plug our Race to the Top proposal--is we have created a 
number of ways for educators to get access to this, including 
an open marketplace where an educator can contribute a lesson 
plan or instructional strategy, and if it is highly rated by 
another teacher as making a contribution to their practice, it 
would trigger a $1,000 royalty from the state.
    Now, that is a way of getting pay for performance that is 
not tied to personnel evaluations but rather encouraging 
teacher professionalism and contributions to one another's 
practice.
    Mrs. Davis. Some districts believe that in order for them 
to bring this about, though, they need, you know, a lot more 
resources and money. This is something that it seems to me 
shouldn't overwhelm districts and their ability to actually 
make this happen.
    I mean, how do you--I will take California, for example, 
and the chairman is very familiar with this. I mean, we are 
aware of the budget today.
    We know that we have been behind in terms of data 
collection, and I would be curious in terms of whether you feel 
that there has been the kind of communication out there and 
strategies that states even as large as California and as 
complex as California could pick some of this up.
    What is it that--how do we talk this through with a 
community that is a bit hysterical right now, and for some good 
reasons, because the budgets have been so impacting on helping 
kids, you know, move forward?
    Mr. Wenning. It is a tough time. Thomas Friedman talks 
about the great inflection happening during the great 
recession.
    We are cutting $260 million of state resources at the time 
we are adding a whole new round of accountability requirements, 
saying, ``Hey, we are going to make these great investments in 
structural improvement systems, and let's do it,'' and try--and 
trying to build that excitement is challenging in this tough 
time.
    But the Race to the Top investment and the state 
longitudinal data system investment is incredibly well timed. 
This type of really substantial investment in instructional 
improvement systems, which is a key aspect of the data 
assurance, is so well timed right now, because when I speak 
with teachers and parents, they are so ready for this 
information.
    They are tired of the old way of holding people accountable 
and not having the basic resources they need. And so the 
customer is ready.
    And with the investment coming from the--you know, the 
federal level on these particular use--you know, tools for use, 
not tools for compliance or accountability, but this emphasis 
on instructional improvement is critical and is, again, well 
timed and should produce the results we are expecting from them 
if there--if these dollars are well invested.
    But I see no resistance from educators, who are our biggest 
supporters, or our parents for this kind of information, 
because they are starving for it and haven't gotten it before.
    Mrs. Davis. Thank you.
    Chairman Miller. Thank you.
    I would just add that the--and unfortunately, I represent 
in some cases at various times the poorest performing schools 
in the state, and when you audit those campuses, those sites, 
sometimes they are awash in money but they are absolutely at 
sea as to what is happening on campus.
    They don't know anything about their students. They don't 
have any communication with their parents. They are just 
managing the site for 8 hours, 10 hours a day, and then--and 
they are just--they just have no discussion of that.
    This is really also about a very efficient use of those 
dollars that this information can bring about in real time.
    Mr. Hinojosa?
    Mr. Hinojosa. Thank you, Mr. Chairman. I agree with much of 
what you said in that statement, because I, too, come from an 
area that is very, very poor, and with some of the highest 
dropout rates that I have ever seen.
    But by the same token, that area has several schools that 
are in the top 100 best high schools in the whole country, and 
so I identified with what Mr. Kitchens learned from that 
counselor or that analyst that came in and gave you the three 
reasons why students who have a high daily attendance and 
mobility and good student discipline have the basis for 
learning and succeeding, because that is the difference between 
the schools that are having a very high dropout rate and the 
ones that have 97 percent attendance, they stay with that 
school ninth through the 12th grade, and they have a student 
disciplined if they must, or they send him back to the sending 
school district.
    But together with student and parental involvement 
emphasizing early reading and writing literacy, teachers 
trained to teach in their major, and basic tools such as a good 
library and good science lab--that gives us 97 percent 
graduation rate, 97 percent going to college, unbelievable 
response, even though we are very poor.
    But this whole thing today has been so interesting that I 
have missed other committee meetings because I wanted to stay 
and chat with you. I want to learn more, because I think this 
improves instruction and helps us close the achievement gap.
    Mr. Wenning, my question to you is how important is it to 
have this student-level data, especially for measuring growth 
in subgroups such as English language learners and minority 
students?
    Mr. Wenning. It is essential. Ultimately, we have an 
interest in equity, not just in opportunity, but now the 
movement to getting really equity of results. It is essential 
that we understand how different student groups are doing.
    And in looking at that very carefully--and there is such an 
important federal role, because without NCLB I don't think many 
states would have done this. By looking particularly--I will 
use the example of English language learners--we were able to 
break some myths in Colorado.
    Our old accountability system, which was just focused on 
AYP and achievement, basically discouraged schools from wanting 
students that had a low starting point.
    When we began measuring growth using the Colorado Growth 
Model, which only looks at where a child starts and then says, 
``How much progress are they making based on all other children 
with the same starting point,'' we learned something amazing 
about our English language learners that folks didn't want to 
believe until they saw the data.
    And that is in Colorado, English language learners outgrow 
their native language peers in every grade level in every 
subject.
    Mr. Hinojosa. If I may interrupt you----
    Mr. Wenning. Yes.
    Mr. Hinojosa [continuing]. That is very interesting. Tell 
me, how can we afford in the school districts to be able to put 
in this kind of educational accountability system? What does it 
cost?
    Mr. Wenning. To do what we did, the costs are relatively 
low. Again----
    Mr. Hinojosa. What is low?
    Mr. Wenning. Everything I showed you for the Colorado 
Growth Model and what we rolled out to across the state--it was 
about $2 million. Now, the----
    Mr. Hinojosa [continuing]. 200?
    Mr. Wenning. Two million.
    Mr. Hinojosa. Two million dollars.
    Mr. Wenning. Yes, and that is state-funded. Now, there is a 
large investment in the back end, and so we started talking 
about these state longitudinal data systems, the back end data 
warehouse that relates all the evidence. That is much more 
expensive, and that is where the state longitudinal data system 
dollars are going.
    But in order to--our growth model--it is free to other 
states. So when Massachusetts adopted it, it cost them zero. It 
is just----
    Mr. Hinojosa. But if the states were to make the 
investment, then the school district could tap into that----
    Mr. Wenning. Absolutely.
    Mr. Hinojosa [continuing]. And thus not have to come up 
with the 2 million.
    Let me ask a question of Katie Hartley.
    I really enjoyed your presentation. I love math. While many 
teachers across my state of Texas recognize the value of using 
data to improve teaching and learning, they would say that they 
do not have enough time to review data during the school day. 
So how often do they do it?
    Ms. Hartley. That is a great question, and I completely 
agree. There is just never enough time. The principal in my 
building gives us a half day in the fall, and I work with each 
department during that half day, 3-hour time, and we go 
through--excuse me--achievement scores from the prior year as 
well as value-added growth scores.
    And we use that in conjunction with some other pieces of 
information that we have gathered through some formative 
assessments that we have the students take, and we write action 
plans for the upcoming or present school year at that point.
    And then we have a system within our schedule during the 
day--all of our students have study hall at the same time, and 
that allows teachers then to--one teacher might have, you know, 
50 students in a study hall, but that frees up another teacher 
to collaborate with teachers either in their grade level or in 
their department.
    And so grade levels meet at least once every 2 weeks and 
departments meet at least once every 3 weeks during the school 
day, during that structured time, to look at data, to work on 
the steps in the action plan, and that is one way that our 
school has very creatively and effectively gone about making 
sure that teachers have that collaboration time.
    Mr. Hinojosa. My time has run out, but it is all very 
interesting. Thank you.
    Chairman Miller. Mr. Holt?
    Mr. Holt. Thank you, Mr. Chairman, and thank you for 
bearing with us for the full hearing here.
    This is something that a number of us have been interested 
in for some time. Representative McCarthy mentioned that she 
and I are introducing today a bill called the metrics bill.
    It is not because we think that this is the end-all and be-
all of legislation, but we want to clearly make the point that 
the NCLB mandate of infrequent high-stakes tests may have some 
value for somebody somewhere--I am not sure--but it is pretty 
much worthless in informing instruction.
    And I visited a school district in New Jersey not too long 
ago that showed me that data-driven instruction can work. This 
was one of the--what we call Abbott school districts. Low 
performing districts that fall under a Supreme Court case.
    And in this district, they have in recent years now been 
offering frequent tests, the results of which are communicated 
to--throughout the school system and to the teachers almost 
immediately, within hours, and the teachers use the data to 
modify their instruction.
    And rather than finding it threatening or intimidating, the 
teachers--or intrusive--the teachers seem to love it. And so it 
gets me to two questions. We have mandated these infrequent 
high-stakes tests--I mean, Congress has, through NCLB.
    In a revised elementary and secondary act, should we be 
mandating more frequent collection of data? Should we be 
mandating data systems that are built on frequent input of data 
so that teachers can use that to modify their instruction?
    Secondly, if we are going to specify a data system to be 
used, how do we make sure that the first--that it is used 
primarily to illuminate student instruction?
    Now, it may also be used for teacher evaluation of teacher 
performance and so forth, but it seems to me the greatest need 
is student instruction, because going back to Ms. Woolsey's 
comment, if we are talking about accountability in schools for 
adequate progress, what every parent thinks, what every 
taxpayer thinks, what every person would think is not how does 
this year's fourth grade compare with last year's fourth grade, 
but how are Tommy and Susie getting along.
    Chairman Miller. The chair is eagerly awaiting the answer. 
I think you have asked two great questions here, and I want to 
make sure there is time for the answer.
    Mr. Kitchens. I would like to take a try.
    Chairman Miller. Take a shot.
    Mr. Kitchens. I, number one, commend very highly what you 
have suggested. I believe that we need to move toward formative 
assessments, and that we need to move toward growth models that 
are formative-based, and that we need to retool our schools to 
do that.
    Now, you know, from my perspective, NCLB as it exists right 
now is about taking a look at differing students over the same 
time frame, and it doesn't make any sense to moms and dads to 
do that. It doesn't make any sense to teachers to do that.
    What we need to be doing is looking at the same child over 
time but through a formative assessment environment where we 
are informing instruction and articulating instructional needs 
to the mother and father and to the teacher, and having the 
teacher able to look into a program and actually suggest to the 
teacher maybe some--use data to suggest how to inform 
instruction.
    And I supported NCLB, and I think there were some good 
things that came out of it. I think we just need to morph into 
this more informative model that I think would be better and 
would sustain us over time.
    Mr. Holt. Mr. Wenning, could----
    Mr. Wenning. Thank you. Our view is that we need to have a 
comprehensive assessment system. We should continue the 
requirement to have annual summative assessment. We need to 
make sure we are investing in formative and interim assessment.
    Summative assessment footprint can shrink and should not 
crowd out the formative and interim practice and assessment 
which is vital to provide that real-time information.
    But we have both national accountability interests and 
local performance management purposes. Both have to be 
balanced. The balance is off right now.
    But the annual summative assessment, the ability to measure 
progress in a common way, to understand what kind of return on 
investment we are getting from our tax dollars needs to be 
maintained. But it can shrink in its role so that we leave much 
greater room for outstanding formative practice to emerge and 
allow that to be the focus of educators.
    But we would urge a balanced approach on this to make sure 
that we actually can have the understanding about how effective 
we are nationally in reaching that goal.
    By the way, that lets us--lets the federal government start 
holding states accountable rather than reaching right into our 
schools and districts. So that is important in terms of what 
kind of roles we have between federal, state and local as well.
    Mr. Reidenberg. May I say something? I share the view as a 
former school official that continuing assessment is very 
valuable. But be careful what you ask for, because if you make 
that mandatory--are you talking about making it mandatory at 
the district level, or making reporting mandatory back to the 
states?
    So a parent will ask you, ``Why does the state have Johnny 
or Sally's biology test result from this week?'' Because that 
is what happens in the state reporting systems, the test 
results get--that are mandated are getting reported back to a 
state database.
    And to your second question, how do you assure that the 
information is primarily used for student instruction, statute. 
Regulation. Have these databases--the uses been defined 
legally. Have the restrictions on their use been defined by law 
so that there is a way to enforce that that is how the data is 
used.
    Ms. Hartley. I would just like, very briefly--I know we are 
short on time--coming into teaching 10 years ago, I was a very 
young teacher when No Child Left Behind was, you know, 
implemented. And I would just like to say that----
    Chairman Miller. You are still young, and I am still stuck 
with No Child Left Behind. What the hell are we doing? 
[Laughter.]
    Ms. Hartley. Thank you. I would just like to say that I 
think that sometimes we miss that, you know, No Child Left 
Behind, at least in my state and in my school, put a lot of 
emphasis on what was being taught in reading and math, and I 
think that is a wonderful thing.
    I don't think we need to necessarily throw out those 
summative tests at the end of the year. I think they are 
invaluable in measuring whether or not schools are--and 
teachers are teaching the things they should be teaching and 
students are learning the things that they should be learning.
    But I also agree that that formative piece, those 
assessments during the year that lead up to that summative 
assessment at the end of the year, are extremely important and 
probably would give us more valuable information that would 
inform instruction than one summative assessment at the end of 
the year.
    Chairman Miller. Thank you.
    Mr. Kucinich?
    Mr. Kucinich. Thank you very much, Mr. Chairman, for 
holding this hearing. I am sorry I am just joining you. I was 
chairing a subcommittee meeting down the road.
    I have read over some of the testimony, and I think that 
this committee certainly has some contributions that we can 
make in the area of privacy protections.
    I was particularly struck by Mr. Reidenberg's testimony 
where he talked about ways that we can make it possible to 
protect children from disclosure of sensitive information that 
really is unrelated to the educational environment.
    I would like to just--and also, I was interested in the 
value-added approach to data that one of the witnesses was 
discussing.
    Mr. Chairman, you know, it may be beyond the scope of this 
hearing, but since we are talking about primarily a system 
which relies on a quantitative approach, is anything being said 
here or does anyone here have any thinking about a more 
qualitative approach towards education?
    I mean, No Child Left Behind was totally structured based 
on a testing regimen. And I am interested in your experience, 
even though all of you are here talking about rather discrete 
quanta. What about a qualitative approach? And is there 
anything that you would recommend based on your experience that 
might lend itself to measurement of qualitative approaches? 
Whoever would like to respond.
    Mr. Wenning. Thank you, Mr. Chairman. That is an excellent 
observation, and quantitative and qualitative are both 
important. And we think it is important that as Congress 
reauthorizes ESEA that you consider making an investment in 
qualitative approaches of school evaluation.
    Let me be specific about what I mean, and that is to use 
models like the British inspectorate system and other 
approaches of school reviews. In our state, we use this--you 
know, the quantitative accountability system. It is a good 
signaling device.
    It tells us where there are strengths and where there are 
weaknesses, where there is persistently low performance and 
where there is persistently high performance that we can learn 
from.
    But then to intervene in a school that is low performing, 
we need to send a team in of educators to really examine the 
practices that are being used. Those reviews can be diagnostic 
and they can also be summative. But they are essential if we 
are to actually understand why a school is either succeeding or 
failing.
    Document that and share that information, that qualitative 
evidence, along with quantitative--provides a much richer 
perspective for educators to support improvement.
    Mr. Kucinich. Anyone else like to try?
    Mr. Kitchens. Could I respond there?
    Mr. Kucinich. Please.
    Mr. Kitchens. I think that it is extremely important if we 
are going--you know, we have this data, and we are using data 
to inform instruction. That means we need new management 
practices instituted in schools.
    So I think that leadership needs to be potentially 
rethought, that there needs to be an investment in leadership 
and in change considered that would really have us go back and 
review.
    Everywhere that we have seen data take hold of our economy 
and improve our economy, inevitably there has been business 
rule adaptations that had to be adopted, had to be instituted. 
We are going to have to do this in education, I think, in a big 
way.
    Mr. Kucinich. Well, I want to thank the gentlemen.
    Mr. Chairman, I am through asking the witnesses questions. 
I just want to pose this to you. Our education system tends to 
promote linear thinking. The data-oriented approach that 
subsumes the educational system is ingrained with and conducive 
to linear thinking.
    And I am just wondering if--in our approach that this 
committee uses that we shouldn't, particularly with a new 
administration, expand our horizons to look at what--how do you 
get out of this box that we are in. I am not rejecting the idea 
that we need measuring, but how do you get out of this box that 
we are in to move towards more creative, qualitative 
approaches?
    So I appreciate that, Mr. Chairman. Thank you.
    Chairman Miller. Thank you.
    Mr. Reidenberg. Mr. Chairman, could I interject just one 
thing? Privacy, I think, is a critical piece for being able to 
think about the qualitative side, because to the extent that 
these data sets--the data collections that are being managed 
without adequate attention to privacy--it de-emphasizes the 
child's dignity. It de-emphasizes very important aspects of the 
whole child and how that whole child is treated in the 
educational system.
    So I think if you want to address the qualitative side, you 
have to have privacy as a piece of it, because that is going to 
help assure it for you.
    Chairman Miller. Any last comments?
    Thank you very much. This has been a very good panel, I 
think, a very helpful panel. And I am a very proud author of No 
Child Left Behind, co-authored with others.
    And I think that the--you know, we allowed people for 25 
years to hide their failures within the systems. We knew a lot 
about the top 15 percent, 20 percent of the students in this 
country, and now we know a lot about the entire student 
profile.
    The question is now what are we doing with that 
information, and this is really what this committee is working 
on in a bipartisan fashion, is that next iteration.
    And it really is about moving to a workplace that looks 
more like a modern workplace, management that looks more modern 
in terms of the management, which is a great deal of 
collaboration, about sharing the responsibilities across work 
forces, across customer bases--in this case, it would be 
parents, families and the community--and seeing how you can 
share that information to develop that quality, to develop 
those tools and to develop those--what are our expectations for 
young people, and to have them be able to realize them.
    We recognized, obviously, in the middle of No Child Left 
Behind, if you will, or from then to this date, that a growth 
model started to make more sense, that we were holding people 
accountable for things they had no control over, and we 
continue to refine that idea in this legislation.
    One of the ways we refine that is through information, 
through data, because, again, many schools don't have a clue 
about the populations. They don't know what has been going 
wrong. They don't know what is happening in their classrooms. 
And that sounds like maybe a very harsh indictment. Just visit 
a lot of schools and you will find a lot of schools where 
teachers are desperate for help but it doesn't come.
    And I think the data--this kind of data that we have 
discussed this morning really give us the best opportunity to 
draw out the talents and to call upon the capital that exists 
in schools today but doesn't necessarily--we don't polish that 
diamond, we don't help that process, because we don't 
understand the composition.
    It is interesting that in 1-year's time this administration 
has taken the two most recalcitrant uses of data, health care 
and education, and moved them into a new century. And it has 
great peril, has great concerns, but the fact of the matter 
is--talk about quality. My colleague talks about quality.
    If you have health insurance in my district, over 60 
percent of you will probably have Kaiser. And the fact of the 
matter is when you see how they manage caseloads, how they 
manage families in the--in asthma epidemics and others--you now 
see the story in the Wall Street Journal where hospitals, non-
profits, profits, and Kaiser are moving across to share data 
systems because they recognize the mobility of their patients.
    When you are in an emergency, you may not walk into your 
home hospital, your home health plan or anything else. And that 
information is critical--the medical errors problem. All of 
these things, and now we look at this.
    What we ended up with in No Child Left Behind, which is 
unacceptable, is that on a single data point we take one of the 
most complex organizations in American society and we make a 
judgment on whether that school failed, the teacher failed, the 
student failed, the family failed, the community failed and the 
system failed.
    There is no complex organization in our society that would 
make those kinds of judgments if they were doing it for real 
consequences. And we did it. What we have now is an opportunity 
to use this data to help every component of that system to be 
better informed and to target their talents and to strengthen 
their weaknesses.
    To me, that is the promise of data. And it has to be 
carefully managed. It has to be protected in terms of privacy. 
But the fact of the matter is what we are starting to see is 
where teachers are exposed to the data in real time that is 
designed to help them, it becomes their friend.
    It just isn't about my pay, or my hiring or my firing, it 
is about do I get to take my hopes and desires, wishes and 
talents and utilize them to--the best that they can.
    And I do this at a lot of teacher sites, and I am very--I 
am fascinated when a teacher in California will ask a question 
and a teacher in Arizona will answer it, referring that teacher 
to a teacher in northern Michigan and to see what that response 
is.
    We are empowering, and we are providing this kind of 
information. It is happening without us, but we are not getting 
the full benefit of it, certainly not at a school site.
    That teacher may be getting that benefit, but the school 
site is not set up so that that teacher can then share with his 
or her colleagues or with the principal to enlighten the 
principal about a better practice or a better way for that 
lesson----
    And so if we--you know, as we move away from a system that 
is very regimented to that one test day on that state test, and 
everything else is disregarded, hopefully we do--we are able to 
then realize the real potentials of the opportunity of 
education.
    I think we also expand the school day rather inexpensively 
if we include after-school programs and what can be 
accomplished in that time frame, what can be accomplished at 
home if parents are informed as to what is--what the 
expectation is for tomorrow in class.
    These are real opportunities that do not exist in most 
schools under the current system because of the lack of 
information and knowledge about the student population and the 
community resources that are available.
    And I think over probably longer than my term in Congress, 
we will also understand that education is very much more of a 
process than a place, and data allows us--the students to take 
themselves to other places to learn, whether it is the museum, 
or whether it is an art gallery, or it is the girls' and boys' 
club, or it is scouting and a merit badge and subjects in 
school. All of a sudden, all of this becomes possible.
    So thank you. Thank you. You have been out there riding on 
the edge, and we appreciate that. And I think this is one of 
the most important things we will do in this reauthorization.
    And, Mr. Reidenberg, absolutely, you raise issues that I 
think every member on this committee shares and is passionate 
about, maybe from different ideological points of view, but we 
are passionate about it, and--but I want to be very careful 
that we don't start getting into mandates of what is or is not.
    There may be a reason a state wants to know about this age 
population for another reason. That is their decision, you 
know, but for the educational components, we want it used for 
this purpose, but I don't want to override what other decisions 
the states made.
    But with respect to this particular data, I think you are 
right, we want to know how it is going to be used and for what 
purpose is it being gathered, because, you know, it is like 
people get excited about Web sites, and all of a sudden they 
have 12,000 of them. They don't know why they have 12,000, 
because they are only using four, but anyway, it is so exciting 
to have access to all this information. It is also costly.
    Thank you very, very much.
    Thank you, Mr. Roe, for your participation this morning. 
And we look forward to continuing to work with you as we 
progress on the legislation.
    And all members will have 14 days to submit additional 
material and questions for the hearing.
    And with that, the hearing stands adjourned. Thank you.
    [Questions for the record submitted to Mr. Wenning follow:]

                                     U.S. Congress,
                                           [Via Facsimile],
                                    Washington, DC, April 19, 2010.
Mr. Richard Wenning, Associate Commissioner,
Colorado Department of Education, 201 E. Colfax, Denver, CO.
    Dear Mr. Wenning: Thank you for testifying at the Committee on 
Education and Labor's hearing on, ``How Data Can be Used to Inform 
Educational Outcomes,'' on April 14, 2010.
    Committee Members have additional questions for which they would 
like written responses from you for the hearing record.
    Representative Dennis Kucinich (D-OH) has asked that you respond in 
writing to the following questions:
    1. Mr. Wenning, you acknowledge the importance of qualitative data 
to the assessment of school performance and the value of the 
``inspectorate'' model to the educational system in England; however I 
note that in the Administration's blueprint for ESEA reauthorization, 
the four intervention models for ``Challenge'' schools seem to lack any 
sort of method for qualitative data collection (to complement the 
quantitative data upon which such a judgment is based). In the context 
of assessing school and student performance, what are the consequences 
of giving too much weight to quantitative data relative to qualitative 
data? Would it not make sense for underperforming schools to have a 
method of school quality review that is based on qualitative data 
collection? Additionally, would it not make sense to have such a method 
of school quality review available to more than just the lowest-
performing schools?
    2. Mr. Wenning, school- and district-level data is only one side of 
the coin. When we talk about student/classroom assessment, we largely 
mean standardized tests and other quantitative data collection 
methods--NCLB has ensured that. Can you speak to the value of 
qualitative data collection at the student/classroom level, and how 
that might be used to assess student performance without subjecting 
students to repeated, high-stakes standardized tests? How can Congress, 
as it contemplates the reauthorization of ESEA, improve state and local 
capacity to develop and conduct student/classroom assessments that 
incorporate qualitative data collection methods?
    Please send an electronic version of your written response to the 
questions to the Committee staff. If you have any questions, please do 
not hesitate to contact the Committee.
            Sincerely,
                                   George Miller, Chairman.
                                 ______
                                 

         Responses to Mr. Kucinich's Questions From Mr. Wenning

    1. Mr. Wenning, you acknowledge the importance of qualitative data 
to the assessment of school performance and the value of the 
``inspectorate'' model to the educational system in England; however I 
note that in the Administration's blueprint for ESEA reauthorization, 
the four intervention models for ``Challenge'' schools seem to lack any 
sort of method for qualitative data collection (to complement the 
quantitative data upon which such a judgment is based). In the context 
of assessing school and student performance, what are the consequences 
of giving too much weight to quantitative data relative to qualitative 
data? Would it not make sense for underperforming schools to have a 
method of school quality review that is based on qualitative data 
collection? Additionally, would it not make sense to have such a method 
of school quality review available to more than just the lowest-
performing schools?

    The question sequence of what? so what? and now what? is useful in 
considering the answer to your questions. Student and school 
performance can be measured effectively using quantitative evidence 
based on summative, interim, and formative assessments. That is, such 
data is useful in answering the question of what is the academic 
performance of the school.
    Quantitative evidence is also useful in answering the so what 
question given that such data directs our attention to inequities in 
academic outcomes and subjects of strength and weakness.
    Quantitative evidence falls short, however, in diagnosing root 
causes of weaknesses in performance. Qualitative evidence of school 
process and practice is essential in answering the question of now what 
will we do to improve. Qualitative school reviews, informed by 
quantitative evidence of performance strengths and weaknesses, play an 
essential role to inform school improvement efforts. Failure to 
understand root causes of performance problems can set educators on a 
course of pursuing quick fixes that do not set a path for sustained 
improvement. Qualitative school reviews are useful to all schools and 
especially low-performing schools that will be the recipient of large 
investments of Federal funding for improvement efforts.
    As Congress contemplates the reauthorization of ESEA, it should 
consider including a prominent role for qualitative school reviews to 
inform school improvement efforts and to evaluate the efficacy of 
school interventions.

    2. Mr. Wenning, school-and district-level data is only one side of 
the coin. When we talk about student/classroom assessment, we largely 
mean standardized tests and other quantitative data collection 
methods--NCLB has ensured that. Can you speak to the value of 
qualitative data collection at the student/classroom level, and how 
that might be used to assess student performance without subjecting 
students to repeated, high-stakes standardized tests? How can Congress, 
as it contemplates the reauthorization of ESEA, improve state and local 
capacity to develop and conduct student/classroom assessments that 
incorporate qualitative data collection methods?

    The design of assessments is a function of funding availability and 
the kinds of questions they are intended to answer. Performance 
assessment that incorporate demonstrations of work or simulations can 
provide timely and useful feedback to students and educators that 
drives insight and action. Assessments of student work progression 
through demonstrations, for example, still will yield a quantitative 
score based on a rubric. So the quantitative vs. qualitative 
distinction may be less important that the nature of the performance 
task that is the subject of the assessment. Large scale performance 
assessments that yield valid and reliable evidence are more complex and 
expensive than many current state assessments.
    As Congress contemplates the reauthorization of ESEA, it should pay 
close attention to the kinds of summative assessments developed with 
the Race to the Top (RTTT) assessment competition resources and the 
formative assessments developed through RTTT phase 1 and 2 awards. 
These resources present a major opportunity to invest in both large 
scale and local assessments that incorporate richer perspectives on 
student and classroom practice.
                                 ______
                                 
    [Whereupon, at 12:33 p.m., the committee was adjourned.]

                                 <all>

</pre></body></html>
